APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Ninth Circuit
(December 2, 2020) . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court Central District of California
(August 8, 2018) . . . . . . . . . . . . . App. 26
Appendix C Order in the United States District
Court Central District of California
(August 16, 2018) . . . . . . . . . . . . App. 57
Appendix D Order in the United States District
Court Central District of California
(August 22, 2018) . . . . . . . . . . . . App. 86
Appendix E Text Entry Order in the United States
District Court Central District of California
(September 20, 2018) . . . . . . . . App. 113
Appendix F Order of Final Judgment in the
United States District Court Central
District of California Western Division
(September 27, 2018) . . . . . . . . App. 114

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS FOR
THE NINTH CIRCUIT
No. 18-56256
D.C. No. 2:18-cv-02421-JFW-E
[Filed December 2, 2020]
BROIDY CAPITAL MANAGEMENT,
)
LLC; and ELLIOTT BROIDY,
)
Plaintiffs-Appellants, )
)
v.
)
)
STATE OF QATAR,
)
Defendant-Appellee. )
____________________________________)
OPINION
Appeal from the United States District Court for the
Central District of California
John F. Walter, District Judge, Presiding
Argued and Submitted February 11, 2020
Pasadena, California
Before: Jay S. Bybee, Daniel P. Collins, and
Daniel A. Bress, Circuit Judges.

App. 2
Opinion by Judge Collins
SUMMARY*
Foreign Sovereign Immunities Act
The panel affirmed the district court’s dismissal, for
lack of subject matter jurisdiction under the Foreign
Sovereign Immunities Act, of an action brought against
the State of Qatar, alleging violation of the Computer
Fraud and Abuse Act and other causes of action.
The panel held that neither the FSIA’s exception to
immunity for tortious activity nor its exception for
commercial activity applied, and the State of Qatar
therefore was immune from jurisdiction.
The panel concluded that all of plaintiffs’ tort claims
were barred under the discretionary function exclusion
from the tortious activity exception because the
challenged conduct met two criteria: (1) it was
discretionary in nature or involved an element of
judgment or choice; and (2) the judgment was of the
kind that the exception was designed to shield. The
first criterion was met because there was no showing
that Qatari or international law proscribed Qatar’s
actions. The second criterion was met because Qatar’s
alleged actions involved considerations of public policy.
Plaintiffs argued that the commercial activity
exception applied because their action was based upon

*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 3
a commercial activity carried on in the United States
by Qatar. The panel concluded that plaintiffs’ claims
were based on the alleged surreptitious intrusion into
their servers and email accounts in order to obtain
information and the dissemination of such information
to others, including persons in the media, and this
conduct did not qualify as commercial activity within
the meaning of the FSIA.
COUNSEL
Shannen Wayne Coffin (argued), Filiberto Agusti,
Christopher M. Re, Linda C. Bailey, and Mark C.
Savignac, Steptoe & Johnson LLP, Washington, D.C.,
for Plaintiffs-Appellants.
David Meir Zionts (argued), Robert A. Long Jr.,
Jonathan Gimblett, Lauren K. Moxley, and Megan M.
O’Neill, Covington & Burling LLP, Washington, D.C.;
Mitchell A. Kamin, Neema T. Sahni, and Rebecca G.
Van Tassell, Covington & Burling LLP, Los Angeles,
California; for Defendant-Appellee.
OPINION
COLLINS, Circuit Judge:
Plaintiffs-Appellants Elliott Broidy and his
investment firm, Broidy Capital Management, LLC,
sued the State of Qatar and various other defendants
after Qatari agents allegedly hacked into Plaintiffs’
computer servers, stole their confidential information,
and leaked it to the media in a retaliatory effort to
embarrass Broidy and thereby to neutralize his ability

App. 4
to continue to effectively criticize the Qatari regime
and its alleged support of terrorism. The district court
dismissed the claims against Qatar for lack of subject
matter jurisdiction, concluding that Qatar was immune
under the Foreign Sovereign Immunities Act (“FSIA”),
28 U.S.C. § 1602 et seq. Although for somewhat
different reasons, we agree with the district court that
subject matter jurisdiction is lacking under the FSIA,
and we therefore affirm its judgment dismissing this
action.
I
A
Qatar’s motion to dismiss relied on a “facial attack
on the subject matter jurisdiction of the district court”
under the FSIA, and therefore, in reviewing de novo
the district court’s order granting that motion, we take
as true the well-pleaded allegations of Plaintiffs’
operative First Amended Complaint. Doe v. Holy See,
557 F.3d 1066, 1073 (9th Cir. 2009); see also Holden v.
Canadian Consulate, 92 F.3d 918, 920 (9th Cir. 1996)
(de novo review applies to dismissal for lack of
jurisdiction under the FSIA). In addition, we note that
Plaintiffs’ opposition to Qatar’s motion to dismiss
requested leave to amend “in order to incorporate
additional allegations based on Plaintiffs’ discovery
efforts,” and the then-current status of those discovery
efforts were set forth in a contemporaneously filed
declaration from Plaintiffs’ counsel. The district court,
however, denied leave to amend based on its conclusion
that “discovery had failed to provide any evidence that
might cure or change the Court’s analysis that it lacks
subject matter jurisdiction over Qatar” and that

App. 5
further amendment would be futile. Because we review
that determination de novo, see Thinket Ink Info. Res.,
Inc. v. Sun Microsystems, Inc., 368 F.3d 1053, 1061 (9th
Cir. 2004), and because we apply the same standards
in evaluating the sufficiency of a proposed amendment
as we do to the underlying complaint, see Miller v.
Rykoff-Sexton, Inc., 845 F.2d 209, 214 (9th Cir. 1988),
we likewise take as true for purposes of this appeal the
additional well-pleaded contentions that are contained
in that declaration of counsel. Considering these
allegations together, we take the following factual
assertions as true for purposes of this appeal.
In response to being sanctioned diplomatically and
commercially by several of its neighbors in June 2017
for its alleged “support for terrorism and its close ties
to Iran,” Qatar launched “a wide-ranging and
extremely well-resourced effort to influence public
opinion in the United States.” In addition to
attempting to burnish Qatar’s image with the U.S.
Government, Qatar’s “public relations campaign”
sought to “curtail[] the influence of individuals that
could undermine the standing of the State of Qatar in
the United States.” One of the persons whose influence
Qatar sought to blunt was Elliott Broidy (“Broidy”), the
CEO of an investment firm in Los Angeles called
Broidy Capital Management, LLC (“BCM”). In addition
to his business ventures, Broidy has been active in
public affairs, serving on the Homeland Security
Advisory Council for several years and also taking
leadership roles in various political and civic
organizations. Starting in March 2017, Broidy became
an outspoken critic of Qatar, condemning it for its
alleged support for terrorism. His activities were

App. 6
perceived by Qatar as thwarting its public relations
efforts, such as when Broidy and others persuaded
many “American Jewish leaders to refuse to meet with
the Emir” of Qatar when the Emir traveled to New
York in the fall of 2017 for the General Assembly of the
United Nations. Qatar also perceived that Broidy “‘had
been influential’ in shaping the White House’s views on
Qatar.” As a result, one registered agent for Qatar
noted that “Broidy’s name [came] up in Embassy
meetings often,” and Qatar decided to target him in
order to limit his future influence.
The centerpiece of Qatar’s purported targeting of
Broidy was a concerted series of cyberattacks aimed at
BCM’s California-based computer servers. In the latter
half of 2017, Qatar retained the New York-based firm
of Global Risk Advisors LLC (“GRA”) to coordinate that
effort, and GRA thereafter introduced Qatar “to cyber
mercenaries in various countries to coordinate
technical aspects of the illegal intrusion.” Thereafter,
through a series of “spearphishing” attacks aimed at
several persons connected to Broidy, including his
executive assistant, the hackers obtained access to
BCM’s Los Angeles-based servers. Beginning on
January 16, 2018, and continuing through at least
February 25, 2018, the hackers engaged in “thousands”
of instances of unauthorized access into BCM’s servers
and obtained “Plaintiffs’ private communications,
emails, documents and intellectual property.”
Subsequent forensic investigation revealed that the
hackers were largely able to hide the origins of the
attacks on BCM’s servers by routing their
communications through Virtual Private Networks

App. 7
(“VPNs”). However, two brief glitches in the VPN
system revealed that at least two attacks in February
2018 originated from an IP address in Doha, Qatar,
that belongs to an internet service provider that is
majority-owned by Qatar. Additional forensic analysis
also established that persons using IP addresses from
Vermont “directly accessed Plaintiffs’ servers 178 times
from February 12, 2018 to February 25, 2018.”
Plaintiffs contend that these Vermont-based attacks
were direct, i.e., that they were not “associated with
VPNs or similar anonymization tools.”
After the hackers obtained Plaintiffs’ private
documents, the stolen materials were converted into
PDF format and distributed to several U.S. media
outlets via email and hand-delivery. A New York-based
public relations firm that Qatar had previously hired in
connection with its efforts to influence U.S. public
opinion, Stonington Strategies LLC (“Stonington”),
participated in this plan to “organize and disseminate
Plaintiffs’ stolen emails to media organizations.” The
metadata from some of these leaked PDFs revealed
timestamps from the Central and Eastern Time Zones,
suggesting that the conversion of these files into PDF
format took place in the United States. Plaintiffs also
allege that “many of the instances of unlawful
distribution of illegally obtained [documents] took place
within the United States.”
The result of the dissemination of the stolen
materials was an unflattering series of articles in
March 2018 in the Wall Street Journal, the New York
Times, and the Huffington Post alleging that, in
exchange for tens of millions of dollars, Broidy and his

App. 8
wife had sought to scuttle a criminal investigation
connected to a Malaysian state investment fund. As a
consequence, Plaintiffs suffered reputational harm and
other injuries.
B
Based on these allegations, Plaintiffs filed this
action against Qatar and various other defendants in
the district court. In the operative First Amended
Complaint, Plaintiffs asserted 10 causes of action
against Qatar, GRA, Stonington, and numerous
individuals arising from the alleged unauthorized
access into Plaintiffs’ servers and the subsequent
distribution of stolen materials. Specifically, Plaintiffs
alleged that the unlawful intrusion into the servers to
obtain information was actionable under the common
law tort of intrusion upon seclusion, as well as under
the civil suit provisions of the Computer Fraud and
Abuse Act, 18 U.S.C. § 1030(g); the Stored
Communications Act, 18 U.S.C. § 2707(a); the Digital
Millennium Copyright Act, 17 U.S.C. § 1203(a); and the
California Comprehensive Computer Data Access and
Fraud Act, see Cal. Penal Code § 502(e). Plaintiffs also
alleged that the unlawful acquisition and
dissemination of the stolen materials were actionable
under common-law theories of conversion and intrusion
upon seclusion, as well as under the civil actions
authorized by California Penal Code § 496(c) (relating
to receipt of stolen property); the California Uniform
Trade Secrets Act, see Cal. Civ. Code §§ 3426.2, 3426.3;
and the Defend Trade Secrets Act, 18 U.S.C. § 1836(b).
The complaint also alleged a cause of action for “civil
conspiracy,” but as the district court correctly noted,

App. 9
there is no such cause of action under California law.
See, e.g., Kenne v. Stennis, 179 Cal. Rptr. 3d 198, 210
(Ct. App. 2014) (“Conspiracy is not a cause of action. It
is a theory of liability under which persons who,
although they do not actually commit a tort
themselves, share with the tortfeasor or tortfeasors a
common plan or design in its perpetration.”). Based on
these claims, Plaintiffs sought declaratory, monetary,
and injunctive relief, as well as attorneys’ fees.1
Qatar filed a motion to dismiss under Federal Rules
of Civil Procedure 12(b)(1) and 12(b)(2) for lack of
subject matter and personal jurisdiction, asserting that
it was immune under the FSIA. In opposing Qatar’s
motion, Plaintiffs argued that two of the FSIA’s
exceptions—the tortious activity exception and the
commercial activity exception—defeated Qatar’s
claimed immunity. On August 8, 2018, the district
court granted Qatar’s motion, finding both exceptions
inapplicable. The tortious activity exception did not
apply, according to the district court, because Plaintiffs
had failed to “allege at least ‘one entire tort’ occurring
in the United States” as required by our decision in
Olsen by Sheldon v. Government of Mexico, 729 F.2d
641, 646 (9th Cir. 1984), abrogated in part on other
grounds as recognized in Joseph v Office of Consulate
Gen. Of Nigeria, 830 F.2d 1018, 1026 (9th Cir. 1987).
The district court concluded that all of the torts alleged
by Plaintiffs were “premised on allegedly wrongful
conduct by Qatar, its agents, or co-conspirators in
gaining access to Plaintiff’s data servers from outside
1

Plaintiffs also sought punitive damages, but such damages are
not available against Qatar. See 28 U.S.C. § 1606.

App. 10
the United States, making each tort transnational.”
The alleged attacked from Vermont, the court held,
“were merely the continuation of purported conduct
allegedly originating in Qatar and ‘do not demonstrate
an independent tort occurring entirely within the
United States’” (citation omitted). The district court
held that the commercial activity exception was
inapplicable because Qatar’s alleged conduct–hacking
and cyberespionage–did not qualify as “commercial
activity” within the meaning of the FSIA. The district
court therefore dismissed the action against Qatar
without leave to amend.
Shortly thereafter, the district court dismissed GRA,
Stonington, and various individual defendants
affiliated with those entities for lack of personal
jurisdiction. With the approval of the district court,
Plaintiff’s claims against three remaining individual
defendants, who had not been served, were voluntarily
dismissed without prejudice and a formal “final,
appealable judgment” was entered by the district court.
See Galaza v Wolf, 954 F.3d 1267, 1272 (9th Cir. 2020)
(where dismissal of remaining claims without prejudice
is done with “the approval and meaningful
participation of the district court,” the resulting
judgment is final and appealable). Plaintiffs timely
appealed the judgment, challenging only the dismissal
of the claims against Qatar.
II
The FSIA is the “‘sole basis’” for obtaining
jurisdiction over a foreign state in a civil action.
Republic of Argentina v. Weltover, Inc., 504 U.S. 607,
611 (1992) (citation omitted). Under the FSIA, a foreign

App. 11
state “shall be immune from the jurisdiction of the
courts of the United States” unless one of the Act’s
enumerated exceptions applies. 28 U.S.C. § 1604. This
default rule of immunity reflects “the absolute
independence of every sovereign authority” and also
“helps to induce each nation state, as a matter of
international comity, to respect the independence and
dignity of every other, including our own.” Bolivarian
Republic of Venezuela v. Helmerich & Payne Int’l
Drilling Co., 137 S. Ct. 1312, 1319 (2017) (simplified).
The Act, however, contains a number of explicit
exceptions to this default rule of foreign sovereign
immunity, thereby acknowledging that there are some
limited situations in which a foreign state entity should
be subject to suit. In establishing such exceptions, the
FSIA generally codifies the so-called “restrictive
theory” of sovereign immunity, under which immunity
“is recognized with regard to sovereign or public acts
(jure imperii) of a state, but not with respect to private
acts (jure gestionis).” Siderman de Blake v. Republic of
Argentina, 965 F.2d 699, 705–06 (9th Cir. 1992)
(citation and internal quotation marks omitted).
Although this “restrictive theory of sovereign immunity
was developed in the context of commercial activities of
states, . . . it is not limited to claims arising out of
contractual relationships,” and in appropriate
circumstances it also imposes liability upon a foreign
state for torts, such as traffic accidents, committed by
that state’s agents. See Restatement (Third) of the
Foreign Relations Law of the United States § 454 cmt.
a (Am. L. Inst. 1987). The FSIA thus contains separate
exceptions that permit certain actions against foreign
states based on their commercial activities, 28 U.S.C.

App. 12
§ 1605(a)(2), as well as certain actions based on the
tortious acts of their agents, id. § 1605(a)(5). If either
of these exceptions is applicable, then the district court
may assert jurisdiction over a “nonjury civil action
against [the] foreign state,” but only “as to any claim
for relief in personam with respect to which the foreign
state is not entitled to immunity.” 28 U.S.C. § 1330(a);
see also Argentine Republic v. Amerada Hess Shipping
Corp., 488 U.S. 428, 434 (1989) (“Sections 1604 and
1330(a) work in tandem: § 1604 bars . . . jurisdiction
when a foreign state is entitled to immunity, and
§ 1330(a) confers jurisdiction . . . when a foreign state
is not entitled to immunity.”).2
There is, of course, no dispute that the State of
Qatar qualifies as a “foreign state” for purposes of the
FSIA, and it is therefore immune from jurisdiction here
unless Plaintiffs’ claims fit within one of the FSIA’s
enumerated exceptions. Plaintiffs invoke both the
tortious activity exception and the commercial activity
exception, and it is their burden to make an initial
showing as to the applicability of one or both of them.
Packsys, S.A. v. Exportadora de Sal, S.A., 899 F.3d
1081, 1088 (9th Cir. 2018). We agree with the district
court that as a matter of law neither exception is

2

Plaintiffs are therefore wrong in suggesting that the district
court can assert jurisdiction over this entire action against Qatar
so long as any one of their claims fits within an exception in the
FSIA. This “foot-in-the-door” approach cannot be reconciled with
the limited grant of jurisdiction in § 1330(a). See Simon v.
Republic of Hungary, 812 F.3d 127, 141 (D.C. Cir. 2016) (courts
must “make FSIA immunity determinations on a claim-by-claim
basis”).

App. 13
applicable here, although our reasoning differs in some
respects from the district court’s. We discuss each
exception in turn.
A
Subject to two enumerated exclusions, the FSIA’s
tortious activity exception allows a foreign sovereign to
be sued in any case:
in which money damages are sought against a
foreign state for personal injury or death, or
damage to or loss of property, occurring in the
United States and caused by the tortious act or
omission of that foreign state or of any official or
employee of that foreign state while acting
within the scope of his office or employment.
28 U.S.C. § 1605(a)(5); see also Liu v. Republic of
China, 892 F.2d 1419, 1425 (9th Cir. 1989). Although
the actual words of the statute require only that a
claimant’s injury occur in the United States, see 28
U.S.C. § 1605(a)(5), the Supreme Court has stated that
this exception “covers only torts occurring within the
territorial jurisdiction of the United States,” Amerada
Hess, 488 U.S. at 441. See also Asociación de
Reclamantes v. United Mexican States, 735 F.2d 1517,
1524 (D.C. Cir. 1984) (Scalia, J.) (“Although the
statutory provision is susceptible of the interpretation
that only the effect of the tortious action need occur
here, where Congress intended such a result elsewhere
in the FSIA it said so more explicitly.”). Accordingly,
we have held that, while not “every aspect of the
tortious conduct” must “occur in the United States,” the
exception in § 1605(a)(5) applies only where the

App. 14
plaintiff alleges “at least one entire tort occurring in
the United States.” Olsen, 729 F.2d at 646.
The parties vigorously dispute how Olsen’s “entire
tort” rule applies to Plaintiffs’ allegations in this case,
but we find it unnecessary to address this issue
because Plaintiffs’ claims fall within one of
§ 1605(a)(5)’s express exclusions from the tortious
activity exception. Johnson v. Riverside Healthcare
Sys., LP, 534 F.3d 1116, 1121 (9th Cir. 2008) (“[W]e
may affirm based on any ground supported by the
record.”). In addition to preserving a foreign sovereign’s
immunity over a specified list of torts, § 1605(a)(5) also
expressly precludes any tort claim against a foreign
state “based upon the exercise or performance or the
failure to exercise or perform a discretionary function
regardless of whether the discretion be abused.” 28
U.S.C. § 1605(a)(5)(A). We conclude that all of
Plaintiffs’ tort claims are barred under this
“discretionary function” exclusion from the FSIA’s
tortious activity exception.
As we have previously observed, “[t]he language of
the discretionary function exclusion closely parallels
the language of a similar exclusion in the Federal Tort
Claims Act (‘FTCA’), so we look to case law on the
FTCA when interpreting the FSIA’s discretionary
function exclusion.” Holy See, 557 F.3d at 1083.
Accordingly, the FSIA’s discretionary function
exclusion applies if the challenged conduct “meets two
criteria: (1) it is ‘discretionary in nature’ or ‘involve[s]
an element of judgment or choice’ and (2) ‘the judgment
is of the kind that the discretionary function exception
was designed to shield.’” Id. at 1083–84 (quoting

App. 15
United States v. Gaubert, 499 U.S. 315, 322–23 (1991)).
Although Qatar ultimately has the burden to establish
that the exclusion applies, that burden arises only if
Plaintiffs have “‘advance[d] a claim that is facially
outside the discretionary function exception.’” Id. at
1084 (citation omitted). We conclude that the particular
tortious conduct that Plaintiffs allege in this case
facially satisfies both of Gaubert’s criteria, and that the
discretionary function exclusion therefore applies.
1
As the Supreme Court has recognized, “conduct
cannot be discretionary unless it involves an element of
judgment or choice.” Berkovitz v. United States, 486
U.S. 531, 536 (1988). Accordingly, the discretionary
function exclusion cannot apply when an applicable
“statute, regulation, or policy specifically prescribes a
course of action.” Id. (emphasis added). Put another
way, a defendant is not exercising discretion if it is
“bound to act in a particular way.” Gaubert, 499 U.S. at
329. Applying similar reasoning, we have also held that
the FTCA’s comparable discretionary function
exception does not apply when the defendants’
assertedly discretionary actions are specifically
proscribed by applicable law. Fazaga v. FBI, 965 F.3d
1015, 1065 (9th Cir. 2020) (conduct that violates
“federal constitutional or statutory directives” is not
within the FTCA’s discretionary function exception);
Tobar v. United States, 731 F.3d 938, 946 (9th Cir.
2013) (same where conduct violated agency’s “own
regulations and policies” (emphasis omitted)); Galvin v.
Hay, 374 F.3d 739, 758 (9th Cir. 2004) (“‘[F]ederal
officials do not possess discretion to violate

App. 16
constitutional rights.’” (citation omitted)). Plaintiffs
contend that “[t]his principle is dispositive here,”
because their operative complaint alleges multiple
violations of specific federal and state statutory
prohibitions. We disagree.
In drawing upon the relevant caselaw applicable to
the U.S. Government under the FTCA’s discretionary
function exception, we must apply those principles
mutatis mutandis in construing the scope of the similar
language used in the FSIA with respect to a foreign
state. The discretion of the U.S. Government is, of
course, cabined by the applicable limitations in the
U.S. Constitution, federal statutes and regulations, and
any other relevant binding source of law. But the policy
discretion of a foreign sovereign is not evaluated by
those same constraints, but rather by the
corresponding limitations that bind that sovereign,
whether contained in its own domestic law or (we will
assume) in applicable and established principles of
international law. We drew precisely this distinction in
Risk v. Halvorsen, 936 F.2d 393 (9th Cir. 1991), in
which we upheld Norway’s immunity under the FSIA
on the ground that the discretionary function exclusion
applied to the challenged actions of Norwegian officials,
despite the fact that those actions “may constitute a
violation of California criminal law.” Id. at 396–97. We
noted that we had previously held that the FSIA’s
discretionary function exclusion “‘is inapplicable when
an employee of a foreign government violates its own
internal law,’” but we concluded that this principle did
not apply in Risk, because there was “no assertion that
the Norwegian officials violated any Norwegian law.”
Id. at 396 (quoting Liu, 892 F.2d at 1431) (emphasis

App. 17
added); see also Liu, 892 F.2d at 1431 (discretionary
function exclusion did not apply where, in ordering
assassination, Taiwanese official had violated
Taiwanese law). And Risk similarly distinguished
Letelier v. Republic of Chile, 488 F. Supp. 665 (D.D.C.
1980), on the ground that it involved an alleged
assassination in violation of international law. Risk,
936 F.2d at 396 (noting that Letelier addressed “‘action
that is clearly contrary to the precepts of humanity’”);
cf. MacArthur Area Citizens Ass’n v. Republic of Peru,
809 F.2d 918, 922 n.4 (D.C. Cir. 1987) (similarly
distinguishing Letelier in a case involving Peru’s
alleged criminal violation of D.C. zoning laws in
establishing a chancery, noting that “it is hardly clear
that, even if a criminal act were shown, it would
automatically prevent designation of Peru’s acts as
discretionary”).
The alleged actions that Qatar took here have not
been shown to violate either Qatari law or applicable
international law. The parties do not dispute that,
under Qatari law, the various criminal prohibitions
against hacking, theft, or disclosure of trade secrets do
not bind government agents acting in accordance with
official orders. Indeed, it would perhaps be surprising
if the domestic law of any country prohibited its own
government agents from engaging in covert
cyberespionage and public relations activities aimed at
foreign nationals in other countries. Nor have the
specific forms of cyberespionage alleged here been
shown to violate judicially enforceable principles of
international law. Cf. Letelier, 488 F. Supp. at 673.
The status of peacetime espionage under international
law is a subject of vigorous debate, see, e.g., Patrick

App. 18
C.R. Terry, “The Riddle of the Sands”—Peacetime
Espionage and Public International Law, 51 Geo. J.
Int’l L. 377, 380–85 (2020); A. John Radsan, The
Unresolved Equation of Espionage and International
Law, 28 Mich. J. Int’l L. 595, 601–07 (2007), and the
parties have not pointed us to any sufficiently clear
rule of international law that would impose a
mandatory and judicially enforceable duty on Qatar not
to do what it allegedly did here. Cf. Sosa v.
Alvarez-Machain, 542 U.S. 692, 724–31 (2004)
(explaining why courts should exercise great caution
before purporting to identify and enforce norms of
international law).
In the absence of a showing that Qatari or
international law proscribes Qatar’s actions here, that
alleged conduct involves an exercise of discretion by
Qatar that satisfies the first Gaubert criterion. Cf.
Fazaga, 965 F.3d at 1024, 1065 (to the extent that
“Defendants did not violate any federal constitutional
or statutory directives, the discretionary function
exception will bar Plaintiffs’ FTCA claims” concerning
alleged “covert surveillance program” aimed at mosque
(emphasis added)).
2
There is, however, a further element that must be
satisfied before the FSIA’s discretionary function
exclusion may be applied, viz., the “judgment” involved
must be “‘of the kind that the discretionary function
exception was designed to shield.’” Holy See, 557 F.3d
at 1083–84 (citation omitted). This criterion is satisfied
if the challenged “‘governmental actions and decisions’”
are “‘based on considerations of public policy.’” Id. at

App. 19
1084 (citation omitted); see also Risk, 936 F.2d at 395
(challenged acts must be “‘grounded in social, economic,
and political policy’” (citation omitted)). Thus,
“[a]lthough driving requires the constant exercise of
discretion, the official’s decisions in exercising that
discretion can hardly be said to be grounded in
regulatory policy.” Gaubert, 499 U.S. at 325 n.7. Here,
there can be little doubt that Qatar’s alleged actions
involved considerations of public policy that are
sufficient to satisfy Gaubert’s second criterion.
Plaintiffs’ complaint alleges that, in response to a
diplomatic and economic boycott, Qatar undertook the
challenged actions as one component of a
public-relations strategy “to influence public opinion in
the United States” by “curtailing the influence of
individuals,” such as Broidy, who “could undermine the
standing of the State of Qatar in the United States.”
Indeed, although the Letelier court found that the
discretionary function exclusion did not apply to the
challenged assassination in that case because it
“clearly” violated international law—i.e., because it
failed what we have described as Gaubert’s first
criterion—that court also expressly acknowledged that
Chile’s act, however reprehensible it might have been,
was “one most assuredly involving policy judgment.”
488 F. Supp. at 673; see also Macharia v. United States,
334 F.3d 61, 67 (D.C. Cir. 2003) (because matters of
embassy location and security involved considerations
that “‘affect foreign relations,’” they satisfied Gaubert’s
“second step” (citation omitted)). We therefore conclude
that Qatar’s alleged conduct here involved “the type of
discretionary judgments that the exclusion was
designed to protect.” Holy See, 557 F.3d at 1084.

App. 20
Because Plaintiffs have failed to “‘advance a claim
that is facially outside the discretionary function’”
exclusion, the tortious activity exception to foreign
sovereign immunity in § 1605(a)(5) is inapplicable here
as a matter of law. Id. (citation omitted).
B
Plaintiffs also contend that the FSIA’s commercial
activity exception allows the U.S. courts to assert
jurisdiction over Plaintiffs’ claims against Qatar, but
we again disagree.
Section 1605(a)(2) contains three separate clauses
that set forth three alternative variations for asserting
jurisdiction over a foreign state based on its
commercial activities. In this court, Plaintiffs rely only
on one of the formulations, namely, the one that allows
jurisdiction over a foreign state in a “case . . . in which
the action is based upon a commercial activity carried
on in the United States by the foreign state.” 28 U.S.C.
§ 1605(a)(2). In applying this clause, we must first
identify what are the activities on which “the action is
based” and then determine whether those activities are
“commercial” within the meaning of the FSIA. Id.
Applying this two-step analysis, we conclude that the
challenged actions of Qatar here do not constitute
“commercial activity.”
As noted, the “crucial” first step “in determining
whether the basis of this suit was a commercial activity
is defining the ‘act complained of here.’” MOL, Inc. v.
People’s Republic of Bangladesh, 736 F.2d 1326, 1328
(9th Cir. 1984) (citation omitted); see also Saudi Arabia
v. Nelson, 507 U.S. 349, 356 (1993). “Although the Act

App. 21
contains no definition of the phrase ‘based upon,’” the
Supreme Court has held that the “phrase is read most
naturally to mean those elements of a claim that, if
proven, would entitle a plaintiff to relief under his [or
her] theory of the case.” Nelson, 507 U.S. at 357. As
explained earlier, all of Plaintiffs’ claims are based
upon either or both of two types of activities: (1) the
surreptitious intrusion into Plaintiffs’ servers and
email accounts in order to obtain information; and
(2) the dissemination of such information to others,
including persons in the media. See supra at 7–8.
Plaintiffs point out that these alleged activities are
connected to other allegedly commercial conduct (such
as the hiring of a public relations firm), but that other
conduct is not what the suit “is based” on. 28 U.S.C.
§ 1605(a)(2). Even taking as true Plaintiffs’ allegations
that Qatar entered into various contracts in the United
States to carry out its operations, “those facts alone
entitle [Plaintiffs] to nothing under their theory of the
case,” and these activities therefore “are not the basis
for [Plaintiffs’] suit.” Nelson, 507 U.S. at 358. It is the
“torts, and not the arguably commercial activities that
preceded [or followed] their commission,” that “form the
basis for [Plaintiffs’] suit.” Id.
The next question, then, is whether Qatar’s
“tortious conduct itself . . . qualif[ies] as ‘commercial
activity’ within the meaning of the Act.” Nelson, 507
U.S. at 358. The FSIA defines “commercial activity” as
“either a regular course of commercial conduct or a
particular commercial transaction or act.” 28 U.S.C.
§ 1603(d). The statute further explains that the
“commercial character of an activity shall be
determined by reference to the nature” of the activity,

App. 22
“rather than by reference to its purpose.” Id. In
assessing whether the “nature” of particular state
actions is commercial, courts look to whether they “are
the type of actions by which a private party engages in
trade and traffic or commerce.” Weltover, 504 U.S. at
614 (simplified); see also Adler v. Federal Republic of
Nigeria, 219 F.3d 869, 875–76 (9th Cir. 2000)
(considering whether the defendants’ challenged
conduct was “what every private party does in the open
market (notwithstanding the fact that their precise
undertakings were illegal)”); Cicippio v. Islamic
Republic of Iran, 30 F.3d 164, 167 (D.C. Cir. 1994)
(“[W]e take from Weltover the key proposition that in
determining whether a given government activity is
commercial under the [FSIA], we must ask whether the
activity is one in which commercial actors typically
engage.”). “[W]hether a state acts ‘in the manner of’ a
private party is a question of behavior, not motivation.”
Nelson, 507 U.S. at 360 (citation omitted).
We have little difficulty in concluding that, without
more, a foreign government’s conduct of clandestine
surveillance and espionage against a national of
another nation in that other nation is not “one in which
commercial actors typically engage.” Cicippio, 30 F.3d
at 167; see also, e.g., Democratic Nat’l Comm. v.
Russian Fed’n, 392 F. Supp. 3d 410, 429 (S.D.N.Y.
2019) (“Transnational cyberattacks are not the ‘type of
actions by which a private party engages in trade and
traffic or commerce.’” (citation omitted)). A foreign
government engaged in such conduct is not exercising
“powers that can also be exercised by private citizens,”
but rather is employing powers that—however
controversial their status may be in international

App. 23
law—are “peculiar to sovereigns.” Nelson, 507 U.S. at
360 (citations and internal quotation marks omitted).
Plaintiffs point out that there are bad actors in the
commercial sphere who employ similar tactics, but any
application of this argument to the particular facts of
this case seems difficult to reconcile with Nelson. In
that case, plaintiff Scott Nelson was allegedly arrested,
imprisoned, and beaten by police officials in Saudi
Arabia, assertedly in retaliation for his reporting of
safety defects in the state-owned hospital at which he
worked. 507 U.S. at 352–53. Nelson and his wife sued
both the Saudi government and the hospital (among
others), claiming that the commercial activity exception
applied in light of the employment-related context in
which the conduct occurred. Id. at 358. After
identifying the tortious conduct—e.g., the arrest,
imprisonment, and beatings—as “the basis for the
Nelsons’ suit,” the Court held that this conduct “fail[ed]
to qualify as ‘commercial activity.’” Id. Emphasizing
that the actual tortious conduct was an exercise of the
police power, rather than an act that can be
“‘performed by an individual acting in his own name,’”
the Court held that, “however monstrous such abuse
undoubtedly may be, a foreign state’s exercise of the
power of its police has long been understood for
purposes of the restrictive theory as peculiarly
sovereign in nature.” Id. at 361–62 (citation omitted).
Just as exercising police and penal powers “is not the
sort of action by which private parties can engage in
commerce,” id. at 362, a foreign government’s
deployment of clandestine agents to collect foreign
intelligence on its behalf, without more, is the sort of
peculiarly sovereign conduct that all national

App. 24
governments (including our own) assert the distinctive
power to perform. Because the conduct Qatar allegedly
engaged in here “‘can be performed only by the state
acting as such,’” id. (emphasis added) (citation
omitted), it is not “commercial” for purposes of the
commercial activity exception. And we agree with the
D.C. Circuit to the extent that it concluded that a
foreign government’s use of “irregular operatives” to
perform uniquely sovereign actions, such as occurred in
this case, is not sufficient to distinguish Nelson.
Cicippio, 30 F.3d at 168.
Having determined that Qatar’s conduct of the
espionage action against Plaintiffs was not a
commercial activity, we also reject Plaintiffs’ argument
that Qatar’s subsequent use of the materials it
obtained constituted a “commercial” activity within the
meaning of the FSIA. Although Plaintiffs contend that
the materials that were accessed and disseminated
included commercially sensitive materials, including
trade secrets, there is no allegation that Qatar made
commercial use of the materials. Plaintiffs contend that
any consideration of Qatar’s subsequent uses is an
improper consideration of purpose, but we disagree.
The Supreme Court confirmed in Weltover that it was
not precluding consideration of the “context” of a
sovereign’s actions, and what a foreign sovereign does
with covertly obtained intelligence is certainly an
aspect of the “outward form of the conduct that the
foreign state performs.” 504 U.S. at 615, 617. To
paraphrase the D.C. Circuit, when the outward actions
are judged in context, there is an objective difference
between (1) stealing the trade secrets of a “commercial
rival” and deploying them against that rival and

App. 25
(2) stealing confidential materials from a policy critic
and publishing embarrassing excerpts from them. Cf.
Cicippio, 30 F.3d at 168 (“Perhaps a kidnapping of a
commercial rival could be thought to be a commercial
activity.”). Here, the context confirms that Qatar was
not acting “in the manner of a private player” in the
marketplace. Weltover, 504 U.S. at 614. Although the
materials were of commercial value to Plaintiffs, the
statute’s focus is on whether the particular actions
that the foreign sovereign took amounted to the conduct
of “‘trade and traffic or commerce,’” id. (citation
omitted), and we agree with the district court that they
were not.
III
Our ruling in this case is neither an affirmation
that the alleged conduct actually occurred nor an
endorsement of any such conduct. Our task is to
assume the allegations to be true and then to apply the
limitations of the FSIA according to the statute’s plain
terms. Having done so, we conclude that the FSIA bars
Plaintiffs’ claims against Qatar here.
The judgment of the district court is AFFIRMED.

App. 26

APPENDIX B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES -- GENERAL
Case No.CV 18-2421-JFW(Ex)
[Filed: August 8, 2018]
Date: August 8, 2018
Title: Broidy Capital Management, LLC, et al. -vState of Qatar, et al.
PRESENT:
HONORABLE JOHN F. WALTER,
UNITED STATES DISTRICT JUDGE
Shannon Reilly
Courtroom Deputy

None Present
Court Reporter

ATTORNEYS PRESENT FOR PLAINTIFFS:
None
ATTORNEYS PRESENT FOR DEFENDANTS:
None
PROCEEDINGS (IN CHAMBERS):
ORDER GRANTING IN PART AND DENYING
IN PART DEFENDANT STATE OF QATAR’S
MOTION TO DISMISS PURSUANT TO RULES
12(b)(1) AND 12(b)(2) OF THE FEDERAL

App. 27
RULES OF CIVIL PROCEDURE [filed 6/27/18;
Docket No. 112]; and
ORDER DENYING AS MOOT DEFENDANT
STATE OF QATAR’S MOTION TO STAY
DISCOVERY PENDING RESOLUTION OF
DEFENDANT STATE OF QATAR’S MOTION
TO DISMISS [filed 6/6/18; Docket No. 80]
On June 6, 2018, Defendant State of Qatar
(“Qatar”) filed a Motion to Stay Discovery Pending
Resolution of Defendant State of Qatar’s Motion to
Dismiss (“Motion to Stay”). On June 11, 2018,
Plaintiffs Broidy Capital Management LLC (“Broidy
Capital”) and Elliott Broidy (“Broidy”) (collectively,
“Plaintiffs”) filed their Opposition. On June 15, 2018,
Qatar filed a Reply. On June 27, 2018, Qatar filed a
Motion to Dismiss Pursuant to Rules 12(b)(1) and
12(b)(2) of the Federal Rules of Civil Procedure
(“Motion to Dismiss”). On July 9, 2018, Plaintiffs filed
their Opposition. On July 16, 2018, Qatar filed a Reply.
Pursuant to Rule 78 of the Federal Rules of Civil
Procedure and Local Rule 7-15, the Court found the
matter appropriate for submission on the papers
without oral argument. The matter was, therefore,
removed from the Court’s July 30, 2018 hearing
calendar and the parties were given advance notice.
After considering the moving, opposing, and reply
papers, and the arguments therein, the Court rules as
follows:

App. 28
I.

Factual and Procedural Background

Broidy is a California businessman who owns and
operates California-based Broidy Capital and is a
prominent critic of Qatar’s policies. In late 2017,
hackers began using sophisticated techniques to
infiltrate the computer systems and accounts belonging
to Plaintiffs and certain of their associates and family
members. First Amended Complaint (“FAC”), ¶ 97-116.
As a result, the hackers stole Plaintiffs’ personal and
professional files, correspondence, trade secrets,
business plans, and other confidential and private
documents. The confidential information was packaged
into documents that were disseminated to journalists
affiliated with various media organizations in the
United States. The journalists then wrote stories that
largely exploited the private and confidential
information contained in the stolen documents.
Forensic investigators retained by Plaintiffs, Ankura
Consulting Group, LLC (“Ankura”), initially
determined that the unauthorized access originated
from Internet Protocol (“IP”) addresses in the United
Kingdom and the Netherlands. However, a more
thorough review of server data revealed that on
February 14 and 19, 2018, the attackers accessed
Broidy Capital’s server from an IP address in Doha,
Qatar. Broidy claims that he became aware of Qatar’s
involvement in these unlawful actions through Joel
Mowbray, a longstanding acquaintance of both
Defendant Nicolas D. Muzin (“Muzin”) and Broidy.
FAC, ¶¶ 10-13 and 133-37. In a conversation with
Mowbray – the contents of which Mowbray later
relayed to Broidy – Muzin told Mowbray that Qatar
was “after” Mowbray and Broidy. Based on Mowbray’s

App. 29
conversations with Muzin (and the discovery of the IP
address in Doha, Qatar), Broidy concluded that Qatar
was responsible for the attack on his and Broidy
Capital’s servers and filed this action on March 26,
2018.
Plaintiffs’ original Complaint alleged seven tort
causes of action against Defendants Qatar, Muzin, and
Muzin’s company, Stonington Strategies LLC
(“Stonington”) and alleged that Plaintiffs’ computer
systems were accessed without authorization from an
IP address in Qatar and that their contents were
subsequently disseminated to media outlets. On April
2, 2018, Plaintiffs filed an Ex Parte Application for
Temporary Restraining Order (“Application”) and a
request for expedited discovery. On April 4, 2018, the
Court entered an Order denying Plaintiffs’ Application
and request for expedited discovery.
On May 24, 2018, Plaintiffs filed a First Amended
Complaint, alleging causes of action for: (1) violation of
the Computer Fraud and Abuse Act, 18 U.S.C.
§§ 1030(a)(2)(C) and (a)(5); (2) violation of the
California Comprehensive Computer Data Access and
Fraud Act, California Penal Code § 502; (3) receipt and
possession of stolen property in violation of California
Penal Code § 496; (4) invasion of privacy by intrusion
upon seclusion; (5) conversion; (6) violation of Stored
Communications Act, 18 U.S.C. § 27012; (7) violation
of Digital Millennium Copyright Act, 17 U.S.C. § 1201
et seq.; (8) violation of the California Uniform Trade
Secrets Act, California Civil Code § 3426 et seq.;
(9) misappropriation of trade secrets in violation of the
Trade Secrets Act, 18 U.S.C. § 1836 et seq.; and

App. 30
(10) civil conspiracy. The First Amended Complaint
added a number of factual allegations, many on
information and belief, concerning the method by which
the hack purportedly occurred, including that the
hackers used virtual private networks to disguise their
identities. FAC, ¶¶ 97-116. Plaintiffs also alleged that
the “hack” began with “phishing” emails, disguised as
Gmail security alerts, sent to Broidy’s wife and his
executive assistant on January 14, 2018. Id.,
¶¶ 97-100, 109-111. Plaintiffs alleged that Broidy’s wife
and his executive assistant provided their usernames
and passwords in response to these disguised Gmail
security alerts, which an unidentified third party then
used to access the email accounts and remotely control
those accounts via a Russian mail service called
“mail.ru.” Id. Plaintiffs contend that the third party
logged into Plaintiffs’ email accounts on “thousands” of
occasions, using different IP addresses. Id., ¶ 113.
Although Plaintiffs also named additional defendants,
including Sheikh Mohammed Bin Hamad Bin Khalifa
Al Thani (“Al Thani”), Ahmed Al-Rumaihi
(“Al-Rumaihi”), and Global Risk Advisors LLC (“Global
Risk”), in their First Amended Complaint Plaintiffs did
not plead any specific facts suggesting that these
defendants were engaged in any unlawful hacking
activity. Plaintiffs allege that Qatar is responsible for
the hack based on the two logins determined to have
originated from an IP address registered to a computer
located somewhere in Doha, Qatar. Id., ¶ 115.

App. 31
II.

Legal Standard
A. Rule 12(b)(1)

The party mounting a Rule 12(b)(1) challenge to the
Court’s jurisdiction may do so either on the face of the
pleadings or by presenting extrinsic evidence for the
Court’s consideration. See White v. Lee, 227 F.3d 1214,
1242 (9th Cir. 2000) (“Rule 12(b)(1) jurisdictional
attacks can be either facial or factual”). “In a facial
attack, the challenger asserts that the allegations
contained in a complaint are insufficient on their face
to invoke federal jurisdiction.” Safe Air for Everyone v.
Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). In ruling
on a Rule 12(b)(1) motion attacking the complaint on
its face, the Court accepts the allegations of the
complaint as true. See, e.g., Wolfe v. Strankman, 392
F.3d 358, 362 (9th Cir. 2004). “By contrast, in a factual
attack, the challenger disputes the truth of the
allegations that, by themselves, would otherwise
invoke federal jurisdiction.” Safe Air, 373 F.3d at 1039.
“With a factual Rule 12(b)(1) attack . . . a court may
look beyond the complaint to matters of public record
without having to convert the motion into one for
summary judgment. It also need not presume the
truthfulness of the plaintiff[‘s] allegations.” White, 227
F.3d at 1242 (internal citation omitted); see also
Thornhill Pub. Co., Inc. v. General Tel & Electronics
Corp., 594 F.2d 730, 733 (9th Cir. 1979) (“Where the
jurisdictional issue is separable from the merits of the
case, the judge may consider the evidence presented
with respect to the jurisdictional issue and rule on that
issue, resolving factual disputes if necessary . . . ‘[N]o
presumptive truthfulness attaches to plaintiff’s

App. 32
allegations, and the existence of disputed material facts
will not preclude the trial court from evaluating for
itself the merits of jurisdictional claims.’”) (quoting
Mortensen v. First Fed. Sav. & Loan Ass’n, 549 F.2d
884, 891 (9th Cir. 1977)). “However, where the
jurisdictional issue and substantive issues are so
intertwined that the question of jurisdiction is
dependent on the resolution of factual issues going to
the merits, the jurisdictional determination should
await a determination of the relevant facts on either a
motion going to the merits or at trial.” Augustine v.
U.S., 704 F.2d 1074, 1077 (9th Cir. 1983). It is the
plaintiff who bears the burden of demonstrating that
the Court has subject matter jurisdiction to hear the
action. See Kokkonen v. Guardian Life Ins. Co., 511
U.S. 375, 377 (1994); Stock West, Inc. v. Confederated
Tribes, 873 F.2d 1221, 1225 (9th Cir. 1989).
B. Rule 12(b)(2)
1. Procedural Considerations
Under Rule 12(b)(2) of the Federal Rules of Civil
Procedure, the Court may decide a question of personal
jurisdiction on the basis of affidavits and documentary
evidence submitted by the parties, or may hold an
evidentiary hearing on the matter. See 5A Wright &
Miller, Federal Practice and Procedure, § 1351, at pp.
253-59 and n. 31-35 (2d ed. 1990); Rose v. Granite City
Police Dept., 813 F. Supp. 319, 321 (E.D. Pa. 1993).
Whichever procedure is used, plaintiff bears the burden
of establishing that jurisdiction is proper. See Ziegler v.
Indian River County, 64 F.3d 470, 473 (9th Cir. 1995);
Flynt Distributing Co. v. Harvey, 734 F.2d 1389, 1392
(9th Cir. 1984). In this case, the pleadings, declarations

App. 33
and documentary evidence submitted by the parties
provide an adequate basis for evaluating jurisdiction.
Accordingly, no evidentiary hearing is necessary.
Because this matter is being decided on the basis of
affidavits and documentary evidence, Plaintiffs need
only make a prima facie showing of personal
jurisdiction. See Fields v. Sedgwick Associated Risks,
Ltd., 796 F.2d 299, 301 (9th Cir. 1986). All allegations
in Plaintiffs’ complaint must be taken as true, to the
extent not controverted by Defendant’s affidavits, and
all conflicts in the evidence must be resolved in their
favor. AT&T Co. v. Compagnie Bruxelles Lambert, 94
F.3d 586, 588 (9th Cir. 1996) (citing WNS, Inc. v.
Farrow, 884 F.2d 200, 203 (5th Cir. 1989)). If Plaintiffs’
evidence constitutes a prima facie showing, this is
adequate to support a finding of jurisdiction,
“notwithstanding [a] contrary presentation by the
moving party.” Wenz v. Memery Crystal, 55 F.3d 1503,
1505 (10th Cir. 1995).
2. Substantive Standard
Whether a federal court can exercise personal
jurisdiction over a non-resident defendant turns on two
independent considerations: whether an applicable
state rule or statute permits service of process on the
defendant, and whether the assertion of personal
jurisdiction comports with constitutional due process
principles. See Pacific Atlantic Trading Co. v. M/V
Main Express, 758 F.2d 1325, 1327 (9th Cir. 1985).
California’s long-arm statute extends jurisdiction to
the limits of constitutional due process. See Gordy v.
Daily News, L.P., 95 F.3d 829, 831 (9th Cir. 1996); Cal.

App. 34
Code. Civ. Proc. § 410.10 (“A court of this state may
exercise jurisdiction on any basis not inconsistent with
the Constitution of this state or of the United States”).
Consequently, when service of process has been
effected under California law, the two prongs of the
jurisdictional analysis collapse into one – whether the
exercise of jurisdiction over the defendant comports
with due process. See Fireman’s Fund Ins. Co. v.
National Bank of Cooperative, 103 F.3d 888, 893 (9th
Cir. 1996); Aanestad v. Beech Aircraft Corp., 521 F.2d
1298, 1300 (9th Cir. 1974).
The Fourteenth Amendment’s Due Process Clause
permits courts to exercise personal jurisdiction over a
defendant who has sufficient “minimum contacts” with
the forum state that “maintenance of the suit does not
offend traditional notions of fair play and substantial
justice.” International Shoe Co. v. Washington, 326 U.S.
310, 316 (1945). There are two recognized bases for
personal jurisdiction over nonresident defendants:
(1) “general jurisdiction,” which arises where the
defendant’s activities in the forum state are sufficiently
“substantial” or “continuous and systematic” to justify
the exercise of jurisdiction over him in all matters; and
(2) “specific jurisdiction,” which arises when a
defendant’s specific contacts with the forum have given
rise to the claim in question. See Helicopteros
Nacionales de Columbia S.A. v. Hall, 466 U.S. 408,
414-16 (1984). See Doe v. American Nat’l Red Cross,
112 F.3d 1048, 1050-51 (9th Cir. 1997); Fields, supra,
796 F.2d at 301-02.

App. 35
III.

Discussion
A. The Foreign Sovereign Immunities Act
of 1976

The Foreign Sovereign Immunities Act of 1976
(“FSIA”) provides “the sole basis” for obtaining
jurisdiction over foreign countries in federal or state
courts:
Subject to existing international agreements to
which the United States is a party at the time of
enactment of this Act a foreign state shall be
immune from the jurisdiction of the courts of the
United States and of the States except as
provided in sections 1605 and 1607 of this
chapter.
28 U.S.C. § 1604; see also Argentine Republic v.
Amerada Hess Shipping Corp., 488 U.S. 428, 443
(1989). The FSIA establishes a fundamental rule that
foreign sovereigns are not subject to the jurisdiction of
United States courts unless a specific statutory
exception to immunity applies. OBB Personenverkehr
AG v. Sachs, 136 S. Ct. 390, 394 (2015) (citing Saudi
Arabia v. Nelson, 507 U.S. 349, 355 (1993)); see also 28
U.S.C. § 1604. This important rule is rooted in
diplomatic and international sensitivities of the highest
order. See, e.g., Bolivarian Republic of Venezuela v.
Helmerich & Payne Int’l Drilling Co., 137 S. Ct. 1312,
1319 (2017) (foreign sovereign immunity “recognizes
the absolute independence of every sovereign authority
and helps to induce each nation state, as a matter of
international comity, to respect the independence and
dignity of every other, including our own”) (quotations

App. 36
and citations omitted). It is the plaintiff that has the
burden of offering proof that one of the FSIA’s limited
exemptions applies. Meadows v. Dominican Republic,
817 F.2d 517, 522-23 (9th Cir. 1987). Once the plaintiff
“offers evidence that an FSIA exception to immunity
applies, the party claiming immunity bears the burden
of proving by a preponderance of the evidence that the
exception does not apply.” Joseph v. Office of the
Consulate Gen. of Nig., 830 F.2d 1018, 1021 (9th Cir.
1987).
The exceptions to the FSIA are construed narrowly,
consistent with the overall statutory objective of
preserving the sovereign immunity of foreign states.
See, e.g., Schermerhorn v. Israel, 876 F.3d 351, 358
(D.C. Cir. 2017) (“The FSIA is premised on ‘a
presumption of foreign sovereign immunity’ qualified
only by a small number of ‘discrete and limited
exceptions’”) (citation omitted); Sampson v. Fed.
Republic of Germany, 250 F.3d 1145, 1155-56 (7th Cir.
2001) (holding that any expansion of the FSIA
exceptions bears “significantly on sensitive foreign
policy matters,” which “might have serious foreign
policy implications”). If one of these narrow exceptions
does not apply, the Court lacks both subject matter and
personal jurisdiction over the foreign state. See 28
U.S.C. § 1330(a)-(b); Verlinden B.V. v. Cent. Bank of
Nigeria, 461 U.S. 480, 489 & n.5 (1983) (holding that
the FSIA provides personal jurisdiction only if subject
matter jurisdiction exists and service of process has
been made in accordance with the Act).

App. 37
B. The Court Lacks Subject
Jurisdiction Over Qatar.

Matter

The Court concludes that Plaintiffs’ claims against
Qatar fall outside any applicable exception to the FSIA
and, therefore, the Court lacks subject matter
jurisdiction over Qatar. Foreign sovereign immunity
under the FSIA "recognizes the absolute independence
of every sovereign authority and helps to induce each
nation state, as a matter of international comity, to
respect the independence and dignity of every other,
including our own." Helmerich & Payne Int’l Drilling,
137 S. Ct. at 1319. In recognition of these fundamental
principles, immunity of a foreign sovereign is the rule
and litigation is the exception. The exceptions to
immunity set forth in the FSIA are triggered by only a
handful of narrow factual circumstances, and the Court
concludes that none of those exceptions are applicable
in this case.
1. The Noncommercial Tort Exception
Does Not Apply.
In this case, Plaintiffs allege in the First Amended
Complaint that the noncommercial tort exception
applies. FAC, ¶ 30. Under the FSIA’s noncommercial
tort exception set forth at 28 U.S.C. § 1605(a)(5),
immunity is only abrogated in actions:
for personal injury or death, or damage to or loss
of property, occurring in the United States and
caused by the tortious act or omission of that
foreign state or of any official or employee of
that foreign state while acting within the scope
of his office or employment.

App. 38
Courts read this exception narrowly, which is
consistent with the general presumption that foreign
states are entitled to sovereign immunity and
Congress’s objective in enacting the noncommercial
exception, which was to “eliminate a foreign state’s
immunity for traffic accidents and other torts
committed in the United States, for which liability is
imposed under domestic tort law.” Amerada Hess, 488
U.S. at 439-40 (citing H.R. Rep. No. 94-1487, at 14 and
20-21 (1976); S. Rep. No. 94-1310, at 14 and 20-21
(1976); U.S. Code Cong. & Admin. News 1976, pp. 6613
and 6619)); see also MacArthur Area Citizens Ass’n v.
Republic of Peru, 809 F.2d 918, 921 (D.C. Cir. 1987)
(noting that the legislative history of the
noncommercial tort exception “counsels that the
exception should be narrowly construed so as not to
encompass the farthest reaches of common law”);
Asociacion de Reclamantes v. United Mexican States,
735 F.2d 1517, 1525 (D.C. Cir. 1984) (“We decline to
convert [the noncommercial tort exception] into a broad
exception for all alleged torts that bear some
relationship to the United States”).
The noncommercial tort exception “makes no
mention of ‘territory outside the United States’ or of
‘direct effects’ in the United States,” and, thus,
Congress’ deliberate word choice indicates that the
noncommercial tort exception “covers only torts
occurring within the territorial jurisdiction of the
United States.” Amerada Hess, 488 U.S. at 441;
Frolova v. Union of Soviet Socialist Republics, 761 F.2d
370, 379 (7th Cir. 1985). The Ninth Circuit follows the
“entire tort” rule, and plaintiffs must allege at least
“one entire tort” occurring in the United States in order

App. 39
to escape the immunity demanded by the FSIA. Olsen
by Sheldon v. Government of Mexico, 729 F.2d 641, 646
(9th Cir. 1984), abrogated on other grounds as stated in
Joseph v. Office of Consulate Gen. of Nigeria, 830 F.2d
1018, 1026 (9th Cir. 1987); Alperin v. Vatican Bank,
2007 WL 4570674, at *9 (N.D. Cal. Dec. 27, 2007)
(dismissing action where “plaintiffs have failed to show
that ‘one entire tort’ has occurred in the United
States”), aff’d, 360 F. App’x 847 (9th Cir. 2009),
amended in part, 365 F. App’x 74 (9th Cir. 2010).
In Doe v. Federal Democratic Republic of Ethiopia,
851 F.3d 7 (D.C. Cir. 2017), the D.C. Circuit held that
“[t]he entire tort – including not only the injury but
also the act precipitating that injury – must occur in
the United States.” Id. at 10 (quoting Jerez v. Republic
of Cuba, 775 F.3d 419, 424 (D.C. Cir. 2014)). The D.C.
Circuit also held that electronic espionage launched
from a foreign country “is a transnational tort” that
does not fall within the FSIA’s noncommercial tort
exception. Doe, 851 F.3d at 11. The court found that
“Ethiopia’s placement of the FinSpy virus on [the
plaintiff’s] computer although completed in the United
States when [the plaintiff] opened the infected e-mail
attachment, began outside the United States.” Id. at 9.
Therefore, the court concluded that “[t]he tort [the
plaintiff] allege[d] thus did not occur ‘entirely’ in the
United States.” Id. at 11.
In this case, Plaintiffs have failed to allege a tort
occurring entirely in the United States.1 The

1

Plaintiffs’ reliance on their cause of action for civil conspiracy is
misplaced because civil conspiracy is not an independent tort

App. 40
substantive torts alleged by Plaintiffs in their First
Amended Complaint are all premised on allegedly
wrongful conduct by Qatar, its agents, or
co-conspirators in gaining access to Plaintiffs’ data
servers from outside the United States, making each
tort transnational.2 FAC, ¶ 115 (“On February 14, 2018
and February 19, 2018, unlawful and unauthorized
connections originated from an IP address in Qatar.
These two unlawful and unauthorized intrusions into
BCM’s California email server were not masked by
VPNs, even though the connections immediately before
and immediately after the access were routed through
VPNs, possibly because the VPN failed or because the
accessing computer automatically connected to Plaintiff
BCM’s network before the VPN could be activated.
These connections revealed the actual location of a
computer or computers accessing Plaintiff BCM’s

under California law and, thus, cannot provide a basis for the
application of the FSIA’s noncommercial tort exception. Entm’t
Research Grp., Inc. v. Genesis Creative Grp., Inc., 122 F.3d 1211,
1228 (9th Cir. 1997); Santa Fe Pac. Realty Corp. v. United States,
780 F. Supp. 687, 693 (E.D. Cal. 1991) (holding that because there
is no separate tort of civil conspiracy under California law, if the
underlying tort is subject to immunity under the Federal Tort
Claims Act, “the conspiracy claim is likewise barred”). Because
Plaintiffs’ substantive causes of action fail under the “entire tort
rule,” Qatar “cannot be bootstrapped into tort liability by the
pejorative plea of conspiracy.” Applied Equip. Corp. v. Litton
Saudi Arabia Ltd., 869 P.2d 454, 459 (Cal. 1994).
2

The Court agrees with Qatar’s analysis that liability under
Plaintiffs’ claims will require proof of access, receipt, intrusion,
interference, taking, circumventing, and misappropriation of
Plaintiffs’ private and confidential information that occurred in
Qatar. See, Motion 12:7-13:12 and Reply, 4:3-6.

App. 41
network from an IP address in Qatar”). Consistent with
the allegations in the First Amended Complaint,
Plaintiffs have steadfastly claimed that their servers
were accessed from outside the United States since the
filing of their original Complaint.3 See Complaint, ¶ 73
(“Although initial forensic analysis of the BCM email
server logs suggested that the unauthorized access
originated from IP addresses in the United Kingdom
3

Plaintiffs argue in their Opposition that the alleged hack may
have occurred in Vermont. However, Plaintiffs concede that they
have failed to allege in their First Amended Complaint that an
“entire tort” occurred within the United States, and have alleged
merely that for some causes of action, “at least some instances of
unlawful [conduct] occurred in the United States.” FAC, ¶¶ 165,
171, and 182. In addition, even if the Court considered these
unsupported conclusory allegations, it is clear on the face of the
First Amended Complaint that those instances were merely the
continuation of purported conduct allegedly originating in Qatar
and “do not demonstrate an independent tort occurring entirely
within the United States.” Greenpeace, Inc. v. State of France, 946
F.Supp. 773, 786 (C.D. Cal. 1996) (holding that alleged unlawful
detention of plaintiffs on French military and civil aircraft in Los
Angeles did not constitute entire tort in the United States where
detention was continuation of conduct begun outside of United
States jurisdiction). The Greenpeace court also rejected as
erroneous Plaintiffs’ interpretation of Olsen, 729 F.2d 641, as
permitting a court to exercise jurisdiction over all tort causes of
action alleged in a complaint “if any ‘entire tort’ took place in the
United States” because “Olsen does not extend FSIA jurisdiction
to tortious conduct occurring overseas.” Greenpeace, 946 F.Supp.
At 785. Moreover, to the extent that Plaintiffs seek to amend their
First Amended Complaint to allege that the alleged hack occurred
solely within the United States, any such allegation would be
directly contradictory to the allegations in their Complaint and
First Amended Complaint and the declarations and other evidence
in support of the temporary restraining order that the hack
occurred, in whole or in part, in Qatar.

App. 42
and the Netherlands, a more thorough review of server
data from February 14, 2018 revealed that the attack
had originated from an IP address in Qatar. On
information and belief, the IP addresses in the
Netherlands and the United Kingdom originally
identified were used to mask the true identity of the
source of the intrusion. Plaintiff Broidy’s advanced
cyber unit was able to uncover problems with the
attacker’s obfuscation technique on February 14, 2018,
which revealed that the attack originated in Qatar”).
Even prior to filing their original Complaint,
Plaintiffs were convinced based on their investigation
that Qatar was responsible for the attack and that it
originated in Qatar. Specifically, Ankura, the forensic
experts hired by Plaintiffs, determined “that
individuals located in Qatar [were] responsible for the
unauthorized activity” based on two mistakes or brief
failures in the attacker’s IP address obfuscation
techniques on February 14, 2018 and February 19,
2018 which revealed that the IP address “is a Qatar
source IP registered to a physical location in Doha,
Qatar.” April 2, 2018 Declaration of J. Luke Tenery
(Docket No. 31-5), ¶ 11. Counsel for Plaintiffs,
presented the evidence of Qatar’s unlawful attacks to
the Ambassador of Qatar, Al Thani, in a letter dated
March 19, 2018. In the letter counsel for Plaintiffs
advised Al Thani that:
The individuals located in Qatar tied to this
attack evidently believed they could maintain
anonymity by trying to disguise their malicious
activity targeting Mr. Broidy’s servers. They
were wrong. Mr. Broidy’s advanced cyber crime

App. 43
forensics unit has established Qatar’s ties to this
illegal hacking operation.
March 19, 2018 Letter from Lee S. Wolosky to Sheikh
Meshal bin Hamad Al Thani (Docket No. 319). The
letter concluded with this warning: “[i]f, as you have
suggested, the attack on Mr. Broidy that originated in
Qatar was not authorized by your government, then we
expect your government to hold accountable the rogue
actors in Qatar who have caused Mr. Broidy
substantial damages.”4 Id.
Although Plaintiffs argue the Court should apply
the noncommercial tort exception, Plaintiffs focus on
the injury they sustained and ignore that the conduct
precipitating that injury involved unlawful access or
“hacking” Plaintiffs’ servers, which Plaintiffs’ own
evidence demonstrates originated in Qatar by actors
who were acting on behalf of Qatar or who were
conspiring with Qatar. In effect, Plaintiffs argue for an
expanded interpretation of Section 1605(a)(5) that
would allow the Court to find subject matter
jurisdiction if the injury, as in this case, occurred in the
United States regardless of whether the tortious
conduct causing the injury occurred within the United
States. However, this interpretation has been
overwhelmingly rejected by the courts that have
considered the issue. See, e.g., Persinger v. Islamic
Republic of Iran, 729 F.2d 835 (D.C. Cir. 1984), cert.

4

The ambassador of Qatar never responded to the March 19, 2018
letter. Plaintiffs construed Qatar’s failure to respond as an
admission that Qatar was responsible for the hack and
immediately filed this action.

App. 44
denied 469 U.S. 881 (1984); Asociacion de Reclaimantes
v. United Mexican States, 735 F.2d 1517 (D.C. Cir.
1984), cert. denied 470 U.S. 1051 (1985); Olsen, 729
F.2d 1984; In re the Matter of the Complaint of Sedco,
Inc., 543 F.Supp. 561 (S.D. Tex. 1982); Australian
Government Aircraft Factories v. Lynne, 743 F.2d 672,
674-75 (9th Cir. 1988) (holding that injuries to pilot’s
family in the United States were insufficient to support
jurisdiction); McKeel v. Islamic Republic of Iran, 722
F.2d 582, 589 n. 10 (9th Cir. 1983) (“We need not decide
whether § 1605(a)(5) may ever provide jurisdiction for
tort actions in which the tortious act or omission occurs
outside the United States. The language of § 1605(a)(5)
suggests that only the injury need occur in the United
States, but the legislative history declares that, ‘the
tortious act or omission must occur within the
jurisdiction of the United States’”) (citation omitted).
Despite Plaintiffs argument to the contrary, the
entire tort rule applied by the Ninth Circuit in Olsen,
729 F.2d 641, is consistent with the application of the
entire tort rule in other circuits. In Olsen, the plaintiffs
asserted a single cause of action for the wrongful death
of their parents in a plane crash in California. Id. at
643. In weighing whether the noncommercial tort
exception applied, the court considered a number of
“potentially tortious acts and omissions occurring both
in Mexico and the United States.” Id. at 645-46. The
court found that the plaintiffs had alleged conduct
occurring entirely in the United States constituting “a
single tort – the negligent piloting of the aircraft” to
bring the plaintiffs’ wrongful death claim within the
exception. Id. at 646. Thus, the negligent piloting that
occurred in the United States was an independent and

App. 45
sufficient cause of the plaintiffs’ injuries – an entire
tort. By holding that the plaintiffs must allege “at least
one entire tort occurring in the United States” to bring
a claim under the noncommercial tort exception, the
Olsen court did not change the entire tort rule.
Instead, the Ninth Circuit held subject matter
jurisdiction could only be exercised to the extent that
the plaintiffs sought relief for a tort taking place
entirely within United States. Id. at 646; see also
Greenpeace, 946 F. Supp. at 785 holding that “Olsen
does not extend FSIA jurisdiction to tortious conduct
occurring overseas” and that “only those torts which
occurred entirely within the United States support
jurisdiction under section 1605(a)(5)”).
The primary reason most courts have rejected a
broad interpretation of Section 1605(a)(5) as argued for
by Plaintiffs is the specific legislative history indicating
Congress’s clear intention that the tortious act or
omission as well and the injury must occur in the
United States. Specifically, the legislative history
reveals that:
Section 1605(a)(5) is directed primarily at the
problem of traffic accidents but is cast in general
terms as applying to all tort actions for money
damages, not otherwise encompassed by section
1605(a)(2) relating to commercial activities. It
denies immunity as to claims for personal injury
or death, or for damage to or loss of property,
caused by the tortious act or omission of a
foreign state or its officials or employees, acting
within the scope of their authority; the tortious
act or omission must occur within the

App. 46
jurisdiction of the United States, and must
not come within one of the exceptions
enumerated in the second paragraph of the
subsection.
H.R. Rep. No. 94-1487, at 20-21 (1976); S. Rep. No.
94-1310, at 20-21 (1976); U.S. Code Cong. & Admin.
News 1976, p. 6619 (emphasis added). Although it is
possible to construe Section 1605(a)(5) as Plaintiffs
urge to mean that the tortious act or omission can
occur anywhere in the world provided that the injury
occurs in the United States, the Court cannot do so in
light of the applicable case law and the clear legislative
history to the contrary.
Moreover, Section 1605(a)(2) demonstrates that
when Congress intended to provide jurisdiction for acts
outside the United States which have an effect inside
the United States, it said so explicitly. Section
1605(a)(2) provides that there is no immunity for a
foreign state’s commercial activities outside the United
States that cause “direct effect in the United States.”
The legislative history reveals that this provision was
adopted in accordance with the principles in the
Restatement (Second) of The Foreign Relations Law of
the United States, § 18 (1965), which provides that a
nation has jurisdiction to attach legal consequences to
conduct outside its borders that causes an effect within
its borders. Significantly, there is no reference to
Section 18 of the Restatement in the committee reports
discussing Section 1605(a)(5).
Accordingly, the Court concludes that the claims
alleged by Plaintiffs do not fall within the scope of the

App. 47
FSIA’s noncommercial tort exception and, therefore,
this Court lacks subject matter jurisdiction.5 6
2. The Commercial Activity Exception
Does Not Apply.
Plaintiffs also allege in the First Amended
Complaint that the commercial activity exception
applies. FAC, ¶ 31. Under the FSIA’s commercial
activity exception set forth at 28 U.S.C. § 1605(a)(2), a
foreign state is not immune when “the action is based
upon a commercial activity carried on in the United
States by the foreign state; or upon an act performed in
the United States in connection with a commercial
activity of the foreign state elsewhere; or upon an act
outside the territory of the United States in connection
with a commercial activity of the foreign state

5

Because the Court concludes that the noncommercial tort
exception does not apply, the Court need not and does not address
the discretionary function rule.
6

Even Scott A. Gilmore, who argues for a broad interpretation of
the noncommercial tort exception of the FSIA in his very
interesting article "Suing the Surveillance States: The (Cyber) Tort
Exception to the Foreign Sovereign Immunities Act," 46 Columbia
Human Rights Law Review 227 (Spring 2015), acknowledges that
"[s]o far, the policy debate on cybersecurity has taken it for
granted that foreign states enjoy immunity for cyber attacks on
U.S. targets." Given the reluctance of the other courts that have
considered the issue to abandon a narrow interpretation of Section
1605(a)(5) and the growing prevalence of attacks in cyberspace, it
may be an appropriate time for Congress to consider a cyber attack
exception to the FSIA which, at the moment, effectively precludes
civil suits in United States courts against foreign governments or
entities acting on their behalf in the cyberworld.

App. 48
elsewhere and that act causes a direct effect in the
United States.” 28 U.S.C. § 1605(a)(2).
“Commercial activity” is defined in the FSIA as
“either a regular course of commercial conduct or a
particular commercial transaction or act.” 28 U.S.C.
§ 1603(d). “Commercial activity carried on in the
United States by a foreign state” refers to commercial
activity carried on by the foreign state that has
substantial contact with the United States. 28 U.S.C.
§ 1603(e). “The commercial character of an activity
shall be determined by reference to the nature of the
course of conduct or particular transaction or act,
rather than by reference to its purpose.” 28 U.S.C.
§ 1603(d).
In Nelson, 507 U.S. at 360, the Supreme Court held
that commercial activity under the FSIA refers to “only
those powers that can also be exercised by private
citizens, as distinct from those powers peculiar to
sovereigns.” “[A] foreign state engages in commercial
activity . . . where it acts in the manner of a private
player within the market.” Id. (quotation omitted); see
also Restatement (Third) of The Foreign Relations Law
of the United States, § 451 (1987) (“Under
international law, a state or state instrumentality is
immune from the jurisdiction of the courts of another
state, except with respect to claims arising out of
activities of the kind that may be carried on by private
persons”). Therefore, with respect to the commercial
activity exception to the FSIA, the relevant question “is
whether the particular actions that the foreign state
performs . . . are the type of actions by which a private
party engages in trade and traffic or commerce.”

App. 49
Argentina v. Weltover, Inc., 504 U.S. 607, 614 (1992)
(quotation omitted). Thus, a court does not consider
whether the specific act was one that only a sovereign
would actually perform. Sun v. Taiwan, 201 F.3d 1105,
1109 (9th Cir. 2000). Instead, the court should consider
whether the “category of conduct” is commercial in
nature. Id.
“Application of the commercial activities exception
is predicated on the existence of a sufficient nexus
between the plaintiff’s asserted cause of action and the
foreign state’s commercial activity.” Embassy of the
Arab Republic of Egypt v. Lasheen, 603 F.3d 1166, 1170
(2010). “The commercial activity relied upon . . . to
establish jurisdiction must be the activity upon which
the lawsuit is based. The focus must be solely upon
those specific acts that form the basis of the suit.” Am.
W. Airlines, Inc. v. GPA Group, Ltd., 877 F.2d 793,
796–97 (9th Cir. 1989) (quotation, emphasis, and
citation omitted). In other words, the phrase “based
upon” in § 1605(a)(2) “is read most naturally to mean
those elements of a claim that, if proven, would entitle
a plaintiff to relief under [its] theory of the case.”
Nelson, 507 U.S. at 357.
In this case, Plaintiffs allege that, as part of an
aggressive information and government relations
campaign, Qatar and its alleged agents engaged in
hacking and dissemination of the private information
of a known critic of Qatar’s policies. FAC, ¶¶ 88-92.
The Court concludes that the alleged conduct is not
commercial in nature. Neither the broader information
and government relations campaign nor Qatar’s
specific “black operation” is the type of action by which

App. 50
private, commercial enterprises typically engage in
trade or commerce. Accordingly, the alleged conduct is
not commercial activity that would justify the lifting of
foreign sovereign immunity.
Although Plaintiffs argue that Qatar’s alleged
contracts with its agents are commercial because
"sophisticated cyber-attack[s] and information
campaign[s]" are activities in which private citizens
can engage (Opposition, p. 16), "the issue is whether
the particular actions that the foreign state performs
. . . are the type of actions by which a private party
engages in trade and traffic or commerce." Republic of
Argentina v. Weltover, Inc., 504 U.S. 607, 614 (1992).
Cyber-attacks are not the "typical acts of market
participants." Cicippio v. Islamic Republic of Iran, 30
F.3d 164, 168 (D.C. Cir. 1994); see also Eringer v.
Principality of Monaco, 2011 WL 13134271, at *6 (C.D.
Cal. Aug. 23, 2011), aff’d, 533 F. App’x 703 (9th Cir.
2013); Jin v. Ministry of State Sec., 557 F. Supp. 2d 131
(D.D.C. 2008).
Accordingly, the Court concludes that the claims
alleged by Plaintiffs do not fall within the scope of the
FSIA’s commercial activity exception and, therefore,
this Court lacks subject matter jurisdiction.7

7

The Court is always concerned when its decision may effectively
deprive parties of a forum to pursue legitimate claims of
wrongdoing. However, this is a natural result of recognizing
foreign sovereign immunity as provided for in both the general
rule and the explicit mandate of the FSIA. See Sachs v. Republic
of Austria, 695 F.3d 1021, 1026 (9th Cir. 2012) ("Any injustice that
results is not greater than the mine-run of cases – jurisdiction over
a foreign state is, after all, ordinarily not available").

App. 51
C. Qatar is a Necessary,
Indispensable Party.

But

Not

1. Qatar is a Necessary Party.
Whether a party is indispensable is determined
pursuant to Rule 19. “The inquiry is a practical,
fact-specific one, designed to avoid the harsh results of
rigid application.” Dawavendewa v. Salt River Project
Agr. Imp. And Power Dist., 276 F.3d 1150, 1154 (9th
Cir. 2002); see also Makah Indian Tribe v. Verity, 910
F.2d 555, 558 (9th Cir.1990). Under the Rule 19
inquiry, the court must determine: (1) whether a party
is necessary to the action; and then, (2) if the party is
necessary, but cannot be joined, whether the party is
indispensable such that in “equity and good conscience”
the suit should be dismissed. Confederated Tribes v.
Lujan, 928 F.2d 1496, 1498 (9th Cir.1991) (quoting
Makah Indian Tribe, 910 F.2d at 558).
In determining whether a party is necessary under
Rule 19, the court considers whether, in the absence of
that party, complete relief can be accorded to the
plaintiff. See, e.g., Shermoen v. United States, 982 F.2d
1312, 1317 (9th Cir.1992). In the alternative, the court
considers whether a party claims a legally protected
interest in the subject of the suit such that a decision in
its absence will: (1) impair or impede its ability to
protect that interest; or (2) expose an existing party to
the risk of multiple or inconsistent obligations by
reason of that interest. See Fed. R. Civ. P. 19(a);
Makah Indian Tribe, 910 F.2d at 558. If a party
satisfies either of these alternative tests, it is a
necessary party to the litigation. See Clinton v. Babbitt,
180 F.3d 1081, 1088 (1999).

App. 52
In this case, if Plaintiffs prevail, they cannot be
accorded complete relief in the absence of Qatar.
Plaintiffs seek injunctive relief prohibiting all
defendants, including Qatar, from accessing Plaintiffs’
protected computers without authorization, accessing
and altering data on Plaintiffs’ computers and
networks, and otherwise unlawfully obtaining
Plaintiffs confidential information. However, because
the Court lacks subject matter jurisdiction over Qatar
under the FSIA, only the remaining defendants – and
not Qatar – would be bound by such an injunction.
Thus, under Rule 19(a)(1), Qatar is a necessary party.
2. Qatar is Not an Indispensable Party.
After concluding that Qatar is a necessary party
and immune from this action under the FSIA, the
Court must next consider whether it is an
indispensable party. Under Rule 19(b), if Qatar is an
indispensable party, Plaintiffs’ entire action must be
dismissed. A party is indispensable if in “equity and
good conscience,” the court should not allow the action
to proceed in its absence. Fed. R. Civ. P. 19(b); Kescoli
v. Babbitt, 101 F.3d 1304, 1310 (9th Cir. 1996). To make
this determination, the Court must balance four
factors: (1) the prejudice to any party or to the absent
party; (2) whether relief can be shaped to lessen
prejudice; (3) whether an adequate remedy, even if not
complete, can be awarded without the absent party;
and (4) whether there exists an alternative forum. See
Kescoli, 101 F.3d at 1310. The Ninth Circuit cautions
that if no alternative forum exists, courts should be
“extra cautious” before dismissing the suit. Makah
Indian Tribe, 910 F.2d at 560.

App. 53
If the necessary party enjoys sovereign immunity
from suit, some courts have noted that there may be
very little need for balancing Rule 19(b) factors because
immunity itself may be viewed as “one of those
interests ‘compelling by themselves,’” which requires
dismissing the suit. Wichita & Affiliated Tribes v.
Hodel, 788 F.2d 765, 777 (D.C. Cir.1986) (quoting 3A
James W. Moore et al., Moore’s Federal Practice ¶ 19.15
(1984)); see also Enterprise Mgmt. Consultants, Inc. v.
United States, 883 F.2d 890, 894 (10th Cir. 1989).
However, despite these out-of-circuit decisions, the
Ninth Circuit has continued to apply the four part
balancing test to determine whether a necessary party
is also an indispensable party. See Confederated Tribes,
928 F.2d at 1499; see also SourceOne Glob. Partners,
LLC v. KGK Synergize, Inc., 2009 WL 1346250, at *4
(N.D. Ill. May 13, 2009) (“If the inability to join a
sovereign as a party had the automatic effect of
nullifying the suit against other private defendants,
Rule 19 would be rendered superfluous in these cases.
That is not the law”) (citing Republic of Philippines v.
Pimentel, 553 U.S. 851 (2008)).
In this case, despite Qatar’s argument to the
contrary, it is difficult to see how Qatar or any of the
remaining defendants would be prejudiced if this action
proceeded without Qatar. The Court concludes that the
types of “comity and dignity interests” that the
Supreme Court held would make dismissal of an action
under Rule 19(b) necessary – claims arising “from
events of historical and political significance,” the
sovereign having “ a unique interest in resolving the”
claims, or a “comity interest in allowing a foreign state
to use its own courts for a dispute if it has a right” –

App. 54
are not present in this action. See Pimentel, 553 U.S. at
866. In addition, any potential prejudice by Qatar’s
absence from this action can be lessened or avoided
entirely by crafting injunctive relief that would affect
only the remaining defendants, and not Qatar. Jota v.
Texaco, Inc., 157 F.3d 153, 160 (2d Cir. 1998)
(reversing a district court’s dismissal of Ecuadoran
residents’ suit against an American oil company on the
basis that the participation of the Republic of Ecuador,
the current owner and operator of oil drilling
equipment, was necessary to afford plaintiffs the full
scope of equitable relief they sought, because plaintiffs’
claims against the American oil company could proceed
even if equitable claims involving the Republic of
Ecuador had been dismissed). Moreover, the Court is
concerned that Plaintiffs would not have an adequate
remedy if this action was dismissed because it is
unlikely that an alternative forum would be available.
See, e.g. Jota, 157 F.3d at 160 (“Though extreme cases
might be imagined where a foreign sovereign’s
interests were so legitimately affronted by the conduct
of litigation in a U.S. forum that dismissal is
warranted without regard to the defendant’s
amenability to suit in an adequate foreign forum, this
case presents no such circumstances”).
D. Plaintiffs’ Request to Amend Their First
Amended Complaint and for
Jurisdictional Discovery is Denied.
Where a motion to dismiss is granted, a district
court must decide whether to grant leave to amend.
Generally, the Ninth Circuit has a liberal policy
favoring amendments and, thus, leave to amend should

App. 55
be freely granted. See, e.g., DeSoto v. Yellow Freight
System, Inc., 957 F.2d 655, 658 (9th Cir. 1992).
However, a Court does not need to grant leave to
amend in cases where the Court determines that
permitting a plaintiff to amend would be an exercise in
futility. See, e.g., Rutman Wine Co. v. E. & J. Gallo
Winery, 829 F.2d 729, 738 (9th Cir. 1987) (“Denial of
leave to amend is not an abuse of discretion where the
pleadings before the court demonstrate that further
amendment would be futile”). “Leave to amend may be
denied if a court determines that allegation of other
facts consistent with the challenged pleading could not
possibly cure the deficiency.” Abagninin v. AMVAC
Chemical Corp., 545 F.3d 733, 742 (9th Cir. 2008)
(quotations and citations omitted).
In this case, Plaintiffs have already had two
opportunities to allege claims that would fall within an
exception to the sovereign immunity provided by the
FSIA and have failed to present “non-conclusory
allegations that, if supplemented with additional
information, will materially affect the court’s analysis
with regard to the applicability of the FSIA.” Crist v.
Republic of Turkey, 995 F. Supp. 5, 12 (D.D.C. 1998)
(citation omitted). Although Plaintiffs have had any
opportunity to conduct discovery, that discovery had
failed to provide any evidence that might cure or
change the Court’s analysis that it lacks subject matter
jurisdiction over Qatar. In addition, Plaintiffs have
failed to identify with particularity how the additional
discovery they would seek could cure the jurisdictional
defects in the First Amended Complaint. See
Greenpeace, 946 F. Supp. at 789.

App. 56
Accordingly, Plaintiffs’ request to amend their First
Amended Complaint and to take jurisdictional
discovery is denied.
IV.

Conclusion

For all the foregoing reasons, Qatar’s Motion is
GRANTED in part and DENIED in part. Qatar’s
motion to dismiss pursuant to Rule 12(b)(1) and Rule
12(b)(2) is GRANTED, and Qatar is DISMISSED
from this action without leave to amend.8 Qatar’s
motion to dismiss the First Amended Complaint
pursuant to Rule 19 is DENIED. Plaintiffs’ request to
amend their First Amended Complaint and to take
jurisdictional discover is DENIED. In light of the
Court’s dismissal of Qatar from this action, Qatar’s
Motion to Stay Discovery Pending Resolution of
Defendant State of Qatar’s Motion to Dismiss is
DENIED as moot.
IT IS SO ORDERED.

8

Because the Court lacks subject matter jurisdiction, the Court
also necessarily lacks of personal jurisdiction over Qatar. See, e.g.,
Verlinden, 461 U.S. at 489 & n. 5 (holding that the FSIA provides
personal jurisdiction only if subject matter jurisdiction exists and
service of process has been made in accordance with the Act).

App. 57

APPENDIX C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES -- GENERAL
Case No. CV 18-2421-JFW(Ex)
[Filed August 16, 2018]
Date: August 16, 2018
Title: Broidy Capital Management, LLC, et al. -vState of Qatar, et al.
PRESENT:
HONORABLE JOHN F. WALTER,
UNITED STATES DISTRICT JUDGE
Shannon Reilly
Courtroom Deputy

None Present
Court Reporter

ATTORNEYS PRESENT FOR PLAINTIFFS:
None
ATTORNEYS PRESENT FOR DEFENDANTS:
None
PROCEEDINGS (IN CHAMBERS):
ORDER
GRANTING
STONINGTON
DEFENDANTS’ MOTION TO DISMISS THE
FIRST AMENDED COMPLAINT [filed 7/9/18;
Docket No. 129]; and

App. 58
ORDER DENYING AS MOOT STONINGTON
DEFENDANTS’ MOTION TO STAY THE CASE
OR IN THE ALTERNATIVE TO STAY
DISCOVERY [filed 6/7/18; Docket No. 81]
On June 7, 2018, Defendants Stonington Strategies
LLC (“Stonington”) and Nicolas D. Muzin (“Muzin”)
(collectively, the “Stonington Defendants”) filed a
Motion to Stay the Case or in the Alternative to Stay
Discovery (“Motion to Stay”). On June 11, 2018,
Plaintiffs Elliott Broidy (“Broidy”) and Broidy Capital
Management LLC (“Broidy Capital”) (collectively,
“Plaintiffs”) filed their Opposition. On June 18, 2018,
the Stonington Defendants filed a Reply. On July 9,
2018, the Stonington Defendants filed a Motion to
Dismiss First Amended Complaint (“Motion to
Dismiss”). On July 23, 2018, Plaintiffs filed their
Opposition. On July 30, 2018, the Stonington
Defendants filed a Reply. Pursuant to Rule 78 of the
Federal Rules of Civil Procedure and Local Rule 7-15,
the Court found these matters appropriate for
submission on the papers without oral argument. The
matters were, therefore, removed from the Court’s
hearing calendar and the parties were given advance
notice.1 After considering the moving, opposing, and
reply papers, and the arguments therein, the Court
rules as follows:

1

The Motion to Stay was removed from the Court’s July 30, 2018
hearing calendar. The Motion to Dismiss was removed from the
Court’s August 13, 2018 hearing calendar.

App. 59
I.

Factual and Procedural Background

Broidy is a California businessman who owns and
operates California-based Broidy Capital and is a
prominent critic of Qatar’s policies. In late 2017,
hackers began using sophisticated techniques to
infiltrate the computer systems and accounts belonging
to Plaintiffs and certain of their associates and family
members. First Amended Complaint (“FAC”), ¶ 97-116.
As a result, the hackers stole Plaintiffs’ personal and
professional files, correspondence, trade secrets,
business plans, and other confidential and private
documents. The confidential information was packaged
into documents that were disseminated to journalists
affiliated with various media organizations in the
United States. The journalists then wrote stories that
largely exploited the private and confidential
information contained in the stolen documents.
Forensic investigators retained by Plaintiffs, Ankura
Consulting Group, LLC (“Ankura”), initially
determined that the unauthorized access originated
from Internet Protocol (“IP”) addresses in the United
Kingdom and the Netherlands. However, a more
thorough review of server data revealed that on
February 14 and 19, 2018, the attackers accessed
Broidy Capital’s server from an IP address in Doha,
Qatar. Broidy claims that he became aware of Qatar’s
involvement in these unlawful actions through Joel
Mowbray, a longstanding acquaintance of both Muzin,
who owns and operates Stonington, and Broidy.2 FAC,

2

The Embassy of the State of Qatar retained Stonington to
develop and implement a communications and government affairs
strategy and this relationship was memorialized in a consulting

App. 60
¶¶ 10-13 and 133-37. In a conversation with Mowbray
– the contents of which Mowbray later relayed to
Broidy – Muzin told Mowbray that Qatar was “after”
Mowbray and Broidy. Based on Mowbray’s
conversations with Muzin (and the discovery of the IP
address in Doha, Qatar), Broidy concluded that Qatar
was responsible for the attack on his and Broidy
Capital’s computer systems and accounts and filed this
action on March 26, 2018.
Plaintiffs’ original Complaint alleged seven tort
causes of action against Defendants Qatar, Muzin,
Stonington and alleged that Plaintiffs’ computer
systems were accessed without authorization from an
IP address in Qatar and that their contents were
subsequently disseminated to media outlets. On April
2, 2018, Plaintiffs filed an Ex Parte Application for
Temporary Restraining Order (“Application”) and a
request for expedited discovery. On April 4, 2018, the
Court entered an Order denying Plaintiffs’ Application
and request for expedited discovery.
On May 24, 2018, Plaintiffs filed a First Amended
Complaint, alleging causes of action for: (1) violation of
the Computer Fraud and Abuse Act, 18 U.S.C.
§§ 1030(a)(2)(C) and (a)(5); (2) violation of the
California Comprehensive Computer Data Access and
Fraud Act, California Penal Code § 502; (3) receipt and

agreement, the Qatari Embassy Agreement. FAC, ¶¶ 20-21 and
63. The First Amended Complaint alleges that the Stonington
Defendants’ consulting activities occurred in and were directed at
decision-makers in Washington, D.C. and New York City, and
included setting up meetings between Qatari officials and various
individuals and groups in those cities. Id., ¶¶ 11-14, 65, and 89.

App. 61
possession of stolen property in violation of California
Penal Code § 496; (4) invasion of privacy by intrusion
upon seclusion; (5) conversion; (6) violation of Stored
Communications Act, 18 U.S.C. § 27012; (7) violation
of Digital Millennium Copyright Act, 17 U.S.C. § 1201
et seq.; (8) violation of the California Uniform Trade
Secrets Act, California Civil Code § 3426 et seq.;
(9) misappropriation of trade secrets in violation of the
Trade Secrets Act, 18 U.S.C. § 1836 et seq.; and
(10) civil conspiracy. The First Amended Complaint
added a number of factual allegations, many on
information and belief, concerning the method by which
the hack purportedly occurred, including that the
hackers used virtual private networks to disguise their
identities. FAC, ¶¶ 97-116. Plaintiffs also alleged that
the “hack” began with “phishing” emails, disguised as
Gmail security alerts, sent to Broidy’s wife and his
executive assistant on January 14, 2018. Id.,
¶¶ 97-100, 109-111. Plaintiffs alleged that Broidy’s
wife and his executive assistant provided their
usernames and passwords in response to these
disguised Gmail security alerts, which an unidentified
third party then used to access the email accounts and
remotely control those accounts via a Russian mail
service called “mail.ru.” Id. Plaintiffs contend that the
third party logged into Plaintiffs’ email accounts on
“thousands” of occasions, using different IP addresses.
Id., ¶ 113. Although Plaintiffs also named additional
defendants, including Sheikh Mohammed Bin Hamad
Bin Khalifa Al Thani (“Al Thani”), Ahmed Al-Rumaihi
(“Al-Rumaihi”), Kevin Chalker (“Chalker”), David Mark
Powell (“Powell”), and Global Risk Advisors LLC
(“Global Risk”), in their First Amended Complaint,
Plaintiffs did not plead any specific facts demonstrating

App. 62
that these defendants were engaged in any unlawful
hacking activity. Instead, Plaintiffs allege that Qatar
is responsible for the hack based on the two logins
determined to have originated from an IP address
registered to a computer located somewhere in Doha,
Qatar. Id., ¶ 115.
With respect to the Stonington Defendants, the
First Amended Complaint contains no allegations that
they unlawfully accessed or “hacked” Plaintiffs’
computer systems and accounts. Instead, Plaintiffs
allege that Qatar initially retained the Stonington
Defendants to develop and implement a government
relations strategy for Qatar and that the strategy
“quickly focused on an effort to put a pro-Jewish spin
on the State of Qatar,” which included the Stonington
Defendants’ attempts to set up meetings with and trips
to Qatar for various American Jewish leaders. Id.,
¶¶ 63-64 and 84. Plaintiffs also allege that another
aspect of the government relations strategy involved
the Stonington Defendants’ efforts to set up meetings
between Qatari officials and various former and
current American government officials. Id., ¶¶ 69-70.
Plaintiffs then allege that because Broidy “exercised
his right to speak out on an issue of national and
international concern” by criticizing Qatar, the
Stonington Defendants thereafter “targeted” Broidy.3
Id., ¶ 91. Based on Plaintiffs’ allegations on

3

In the First Amended Complaint, Plaintiffs generally allege that
they were “targeted” by the “Defendants” and the “Agent
Defendants.” Id. at 91. “Agent Defendants” is defined as including
the Stonington Defendants, Global Risk, Chalker, Powell,
Al-Rumaihi and ten additional “John Doe” defendants.

App. 63
information and belief, this “targeting and fingering”
involved the Stonington Defendants “conspir[ing] with
the other Defendants from within the United States to
organize and disseminate Plaintiffs’ stolen emails to
media organizations” and that Stonington “was among
the vehicles used by the State of Qatar to funnel funds
to others involved in the attack.” Id., ¶ 9. Plaintiffs
conclude that the Stonington Defendants “implicated”
themselves with respect to disseminating the materials
unlawfully obtained from Plaintiffs’ computer systems
and accounts by comments Muzin made in his
conversations with Mowbray. For example, Plaintiffs
allege that “Muzin demonstrated further
foreknowledge of press reports about Plaintiff Broidy
based on illegally obtained information when he
informed Mowbray [on February 27, 2018] that there
were ‘reporters circulating around’ to focus on issues
relating to Plaintiff Broidy, the Middle East, and
George Nadar” even though “[t]he first published
report of any alleged connection between Nadar and
Plaintiff Broidy did not occur until March 3, 2018.” Id.,
¶¶ 133-34. Plaintiffs also allege that “[o]n March 5,
2018, Defendant Muzin informed Mowbrey that there
was “more stuff coming” from the New York Times” and
that “Muzin further acknowledged [to Mowbray] that
everyone he ‘fingered’ was ‘in danger.’” Id., ¶¶ 135-36.
II.

Legal Standard
A. Rule 12(b)(1)

The party mounting a Rule 12(b)(1) challenge to the
Court’s jurisdiction may do so either on the face of the
pleadings or by presenting extrinsic evidence for the
Court’s consideration. See White v. Lee, 227 F.3d 1214,

App. 64
1242 (9th Cir. 2000) (“Rule 12(b)(1) jurisdictional
attacks can be either facial or factual”). “In a facial
attack, the challenger asserts that the allegations
contained in a complaint are insufficient on their face
to invoke federal jurisdiction.” Safe Air for Everyone v.
Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). In ruling
on a Rule 12(b)(1) motion attacking the complaint on
its face, the Court accepts the allegations of the
complaint as true. See, e.g., Wolfe v. Strankman, 392
F.3d 358, 362 (9th Cir. 2004). “By contrast, in a factual
attack, the challenger disputes the truth of the
allegations that, by themselves, would otherwise
invoke federal jurisdiction.” Safe Air, 373 F.3d at 1039.
“With a factual Rule 12(b)(1) attack . . . a court may
look beyond the complaint to matters of public record
without having to convert the motion into one for
summary judgment. It also need not presume the
truthfulness of the plaintiff[‘s] allegations.” White, 227
F.3d at 1242 (internal citation omitted); see also
Thornhill Pub. Co., Inc. v. General Tel & Electronics
Corp., 594 F.2d 730, 733 (9th Cir. 1979) (“Where the
jurisdictional issue is separable from the merits of the
case, the judge may consider the evidence presented
with respect to the jurisdictional issue and rule on that
issue, resolving factual disputes if necessary . . . ‘[N]o
presumptive truthfulness attaches to plaintiff’s
allegations, and the existence of disputed material facts
will not preclude the trial court from evaluating for
itself the merits of jurisdictional claims.’”) (quoting
Mortensen v. First Fed. Sav. & Loan Ass’n, 549 F.2d
884, 891 (9th Cir. 1977)). “However, where the
jurisdictional issue and substantive issues are so
intertwined that the question of jurisdiction is
dependent on the resolution of factual issues going to

App. 65
the merits, the jurisdictional determination should
await a determination of the relevant facts on either a
motion going to the merits or at trial.” Augustine v.
U.S., 704 F.2d 1074, 1077 (9th Cir. 1983). It is the
plaintiff who bears the burden of demonstrating that
the Court has subject matter jurisdiction to hear the
action. See Kokkonen v. Guardian Life Ins. Co., 511
U.S. 375, 377 (1994); Stock West, Inc. v. Confederated
Tribes, 873 F.2d 1221, 1225 (9th Cir. 1989).
B. Rule 12(b)(2)
Under Rule 12(b)(2) of the Federal Rules of Civil
Procedure, the Court may decide a question of personal
jurisdiction on the basis of affidavits and documentary
evidence submitted by the parties, or may hold an
evidentiary hearing on the matter. See 5A Wright &
Miller, Federal Practice and Procedure, § 1351, at pp.
253-59 and n. 31-35 (2d ed. 1990); Rose v. Granite City
Police Dept., 813 F. Supp. 319, 321 (E.D. Pa. 1993).
Whichever procedure is used, plaintiff bears the burden
of establishing that jurisdiction is proper. See Ziegler v.
Indian River County, 64 F.3d 470, 473 (9th Cir. 1995);
Flynt Distributing Co. v. Harvey, 734 F.2d 1389, 1392
(9th Cir. 1984). In this case, the pleadings, declarations
and documentary evidence submitted by the parties
provide an adequate basis for evaluating jurisdiction.
Accordingly, no evidentiary hearing is necessary.
Because this matter is being decided on the basis of
affidavits and documentary evidence, Plaintiffs need
only make a prima facie showing of personal
jurisdiction. See Fields v. Sedgwick Associated Risks,
Ltd., 796 F.2d 299, 301 (9th Cir. 1986). All allegations
in Plaintiffs’ complaint must be taken as true, to the

App. 66
extent not controverted by Defendant’s affidavits, and
all conflicts in the evidence must be resolved in their
favor. AT&T Co. v. Compagnie Bruxelles Lambert, 94
F.3d 586, 588 (9th Cir. 1996) (citing WNS, Inc. v.
Farrow, 884 F.2d 200, 203 (5th Cir. 1989)). If Plaintiffs’
evidence constitutes a prima facie showing, this is
adequate to support a finding of jurisdiction,
“notwithstanding [a] contrary presentation by the
moving party.” Wenz v. Memery Crystal, 55 F.3d 1503,
1505 (10th Cir. 1995).
C. Rule 12(b)(6)
A motion to dismiss brought pursuant to Federal
Rule of Civil Procedure 12(b)(6) tests the legal
sufficiency of the claims asserted in the complaint. “A
Rule 12(b)(6) dismissal is proper only where there is
either a ‘lack of a cognizable legal theory’ or ‘the
absence of sufficient facts alleged under a cognizable
legal theory.’” Summit Technology, Inc. v. High-Line
Medical Instruments Co., Inc., 922 F. Supp. 299, 304
(C.D. Cal. 1996) (quoting Balistreri v. Pacifica Police
Dept., 901 F.2d 696, 699 (9th Cir. 1988)). However,
“[w]hile a complaint attacked by a Rule 12(b)(6) motion
to dismiss does not need detailed factual allegations, a
plaintiff’s obligation to provide the ‘grounds’ of his
‘entitlement to relief’ requires more than labels and
conclusions, and a formulaic recitation of the elements
of a cause of action will not do.” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555 (2007) (internal citations
and alterations omitted). “[F]actual allegations must be
enough to raise a right to relief above the speculative
level.” Id.

App. 67
In deciding a motion to dismiss, a court must accept
as true the allegations of the complaint and must
construe those allegations in the light most favorable
to the nonmoving party. See, e.g., Wyler Summit
Partnership v. Turner Broadcasting System, Inc., 135
F.3d 658, 661 (9th Cir. 1998). “However, a court need
not accept as true unreasonable inferences,
unwarranted deductions of fact, or conclusory legal
allegations cast in the form of factual allegations.”
Summit Technology, 922 F. Supp. at 304 (citing
Western Mining Council v. Watt, 643 F.2d 618, 624 (9th
Cir. 1981) cert. denied, 454 U.S. 1031 (1981)).
“Generally, a district court may not consider any
material beyond the pleadings in ruling on a Rule
12(b)(6) motion.” Hal Roach Studios, Inc. v. Richard
Feiner & Co., 896 F.2d 1542, 1555 n. 19 (9th Cir. 1990)
(citations omitted). However, a court may consider
material which is properly submitted as part of the
complaint and matters which may be judicially noticed
pursuant to Federal Rule of Evidence 201 without
converting the motion to dismiss into a motion for
summary judgment. See, e.g., id.; Branch v. Tunnel, 14
F.3d 449, 454 (9th Cir. 1994).
Where a motion to dismiss is granted, a district
court must decide whether to grant leave to amend.
Generally, the Ninth Circuit has a liberal policy
favoring amendments and, thus, leave to amend should
be freely granted. See, e.g., DeSoto v. Yellow Freight
System, Inc., 957 F.2d 655, 658 (9th Cir. 1992).
However, a Court does not need to grant leave to
amend in cases where the Court determines that
permitting a plaintiff to amend would be an exercise in

App. 68
futility. See, e.g., Rutman Wine Co. v. E. & J. Gallo
Winery, 829 F.2d 729, 738 (9th Cir. 1987) (“Denial of
leave to amend is not an abuse of discretion where the
pleadings before the court demonstrate that further
amendment would be futile.”).
III.

Discussion
A. Plaintiffs Have Not Demonstrated that
the Stonington Defendants Are Subject
to Personal Jurisdiction in California.

Whether a federal court can exercise personal
jurisdiction over a non-resident defendant turns on two
independent considerations: whether an applicable
state rule or statute permits service of process on the
defendant, and whether the assertion of personal
jurisdiction comports with constitutional due process
principles. See Pac. Atl. Trading Co. v. M/V Main
Express, 758 F.2d 1325, 1327 (9th Cir. 1985).
California’s long-arm statute extends jurisdiction to the
limits of constitutional due process. See Gordy v. Daily
News, L.P., 95 F.3d 829, 831 (9th Cir. 1996); Cal. Code.
Civ. Proc. § 410.10 (“A court of this state may exercise
jurisdiction on any basis not inconsistent with the
Constitution of this state or of the United States”).
Consequently, when service of process has been
effected under California law, the two prongs of the
jurisdictional analysis collapse into one—whether the
exercise of jurisdiction over the defendant comports
with due process. See Fireman’s Fund Ins. Co. v. Nat’l
Bank of Cooperative, 103 F.3d 888, 893 (9th Cir. 1996);
Aanestad v. Beech Aircraft Corp., 521 F.2d 1298, 1300
(9th Cir. 1974).

App. 69
The Fourteenth Amendment’s Due Process Clause
permits courts to exercise personal jurisdiction over a
defendant who has sufficient “minimum contacts” with
the forum state such that “maintenance of the suit does
not offend traditional notions of fair play and
substantial justice.” Int’l Shoe Co. v. Washington, 326
U.S. 310, 316 (1945). There are two recognized bases
for personal jurisdiction over nonresident defendants:
(1) “general jurisdiction,” which arises where the
defendant’s activities in the forum state are sufficiently
“substantial” or “continuous and systematic” to justify
the exercise of jurisdiction over him in all matters; and
(2) “specific jurisdiction,” which arises when a
defendant’s specific contacts with the forum have given
rise to the claim in question. See Helicopteros
Nacionales de Columbia S.A. v. Hall, 466 U.S. 408,
414–16 (1984); Doe v. Am. Nat’l Red Cross, 112 F.3d
1048, 1050–51 (9th Cir. 1997).
1. General Jurisdiction
General jurisdiction allows a court to hear any and
all claims against a defendant regardless of whether
the claims relate to the defendant’s contacts with the
forum state. See Schwarzenegger v. Fred Martin Motor
Co., 374 F.3d 797, 801 (9th Cir. 2004) (“[A] finding of
general jurisdiction permits a defendant to be haled
into court in the forum state to answer for any of its
activities in the world.”) For general jurisdiction to
exist, a defendant’s affiliations with the forum state
must be “so ‘continuous and systematic’ as to render [it]
essentially at home in the forum[.]” Daimler AG v.
Bauman, 571 U.S. 117, 138–39 (2014) (quoting
Goodyear Dunlop Tires Operations, S.A. v. Brown, 564

App. 70
U.S. 915, 919 (2011)). In the case of a corporation,
“[t]he paradigmatic locations where general jurisdiction
is appropriate . . . are its place of incorporation and its
principal place of business.” Ranza v. Nike, Inc., 793
F.3d 1059, 1069 (9th Cir. 2015) (internal citation
omitted). “Only in an ‘exceptional case’ will general
jurisdiction be available anywhere else.” Martinez v.
Aero Caribbean, 764 F.3d 1062, 1070 (9th Cir. 2014).
Plaintiffs do not contend that the Stonington
Defendants are subject to general jurisdiction in
California. Indeed, in the First Amended Complaint,
Plaintiffs allege that Stonington is incorporated in
Delaware with its principle place of business in New
York and Muzin is a resident of Maryland. FAC,
¶¶ 20-21. Therefore, Plaintiffs are not residents of
California. Moreover, the First Amended Complaint is
devoid of any allegations that suggest that the
Stonington Defendants’ contacts with California “are so
continuous and systematic as to render [it] essentially
at home” in the state. Daimler, 571 U.S. at 138–39
(internal quotation marks and citation omitted). In
addition, there is nothing about this case that would
suggest it is an exceptional case that would justify
finding general jurisdiction outside of Stonington’s
place of incorporation and principal place of business or
Muzin’s state of residency. See Lindora, LLC v.
Isagenix Int’l, LLC, 198 F. Supp. 3d 1127, 1137–38
(S.D. Cal. 2016). Accordingly, the Court concludes that
the Stonington Defendants are not subject to general
jurisdiction in California.

App. 71
2. Specific Jurisdiction
For a court to exercise specific jurisdiction, the
plaintiff’s suit must arise out of or relate to the
defendant’s contacts with the forum. Bristol-Meyers
Squibb Co. v. Superior Ct., 137 S. Ct. 1773, 1778
(2017). The Ninth Circuit applies a three-part test to
determine whether a court has specific jurisdiction over
a defendant:
(1) The non-resident defendant must
purposefully direct his activities or consummate
some transaction with the forum or resident
thereof; or perform some act by which he
purposefully avails himself of the privilege of
conducting activities in the forum, thereby
invoking the benefits and protections of its laws;
(2) the plaintiff’s claim must be one which arises
out of or relates to the defendant’s forum-related
activities; and
(3) the exercise of jurisdiction must comport with
fair play and substantial justice, i.e., it must be
reasonable.
Axiom Foods, Inc. v. Acerchem Int’l, Inc., 874 F.3d
1064, 1068 (9th Cir. 2017). A plaintiff bears the burden
of establishing the first two prongs. Schwarzenegger,
374 F.3d at 802. If the plaintiff fails to satisfy either of
the first two prongs, then personal jurisdiction over the
defendant does not lie in the forum state. Id. If the
plaintiff succeeds on the first two prongs, then the
defendant must present a compelling case as to why
exercising jurisdiction would be unreasonable. Id.

App. 72
a. Purposeful Direction
The first prong of the specific jurisdiction test,
although commonly referred to as the purposeful
availment requirement, actually consists of two distinct
concepts. Id. A plaintiff may satisfy this element by
demonstrating that the defendant “has either
(1) ‘purposefully availed’ [it]self of the privilege of
conducting activities in the forum [state], or
(2) ‘purposefully directed’ [its] activities toward the
forum.” Pebble Beach Co. v. Caddy, 453 F.3d 1151,
1155 (9th Cir. 2006). The purposeful availment concept
generally applies in contract cases, whereas the
purposeful direction concept applies in tort cases.
Axiom, 874 F.3d at 1069; see also Fiore v. Walden, 688
F.3d 558, 576 (9th Cir. 2012), rev’d on other grounds by
Walden v. Fiore, 571 U.S. 277 (2014). Because Plaintiff
alleges that the Stonington Defendants engaged in
tortious conduct, the Court will apply the purposeful
direction test. See Axiom, 874 F. 3d at 1069.
To determine whether a defendant purposefully
directed its tortious activity toward the forum state, a
court must apply the “effects test” from Calder v. Jones,
465 U.S. 783 (1984). Id. This test examines whether:
(1) the defendant committed an intentional act; (2) the
act was expressly aimed at the forum state; and (3) the
act caused harm the defendant knew would likely be
suffered in the forum state. Id.

App. 73
(1)

Whether the Stonington
Defendants Committed an
Intentional Act.

In the context of the Calder test, an intentional act
is “an external manifestation of the actor’s intent to
perform an actual, physical act in the real world, not
including any of its actual or intended results.”
Washington Shoe Co. v. A-Z Sporting Goods, Inc., 704
F.3d 668, 675 (9th Cir. 2012). Plaintiffs do not allege
that the Stonington Defendants specifically hacked
Plaintiffs’ computer systems and accounts. With
respect to dissemination of Plaintiffs’ confidential and
private information stolen from Plaintiffs’ computer
systems and accounts to members of the media,
Plaintiffs allege on information and belief that the
Stonington Defendants “conspired with the other
Defendants from within the United States to organize
and disseminate Plaintiffs’ stolen emails to media
organizations” and that Stonington “was among the
vehicles used by the State of Qatar to funnel funds to
others involved in the attack.” However, Plaintiffs fail
to allege any facts to support these conclusory
allegations.4 Bengley v. County of Kauai, 2018 WL 363

4

For example, Plaintiffs allege that “[o]n March 8, 2018,
Defendant Muzin demonstrated his knowledge that Plaintiff
Broidy had been successfully targeted by the State of Qatar by
stating: ‘I did not cause the Broidy stuff, just because I have
information’ and ‘I don’t know all the details, but I know that I am
hearing repeatedly that there’s a lot more coming.’” FAC, ¶ 122.
Plaintiffs argue that this and similar allegations demonstrate that
the Stonington Defendants “targeted” Plaintiffs. However, as the
Court pointed out in its April 4, 2018 Order denying Plaintiffs’ ex
parte application for a temporary restraining order, although it is

App. 74
8083 (D. Haw. July 31, 2018) (“The district court has
stated, although allegations upon information and
belief may state a claim after Iqbal and Twombly, a
claim must still be based on factual content that makes
liability plausable, and not be formulaic recitations of
the elements of a cause of action”) (internal quotations
omitted). In addition, although Plaintiffs also allege
that generic “Defendants” or “Agent Defendants”
conducted or otherwise took part in disseminating
Plaintiffs’ stolen information to the media, Plaintiffs do
not dispute – because they could not – that the
conclusory allegations against “Defendants” or “Agent
Defendants” are insufficient to establish personal
jurisdiction of the Stonington Defendants. See, e.g.,
Head v. Las Vegas Sands, LLC, 298 F. Supp. 3d 963,
973 (S.D. Tex. 2018) (“[A] plaintiff must submit
evidence supporting personal jurisdiction over each
defendant, and cannot simply lump them all together”)
(citing Calder, 465 U.S. at 790).
Therefore, the Court concludes that Plaintiffs have
failed to sufficiently allege that the Stonington
Defendants committed any of the intentional acts, such
as hacking Plaintiffs’ computer systems or accounts or

clear that Muzin was aware that various members of the press
were investigating and planning to publish stories regarding
Plaintiffs, these types of allegations in no way implicate the
Stonington Defendants in the hack of Plaintiffs’ computer systems
and accounts or the dissemination of Plaintiffs’ private and
confidential information. See, e.g., Axiom Foods, 874 F.3d at 1070
(holding that a “theory of individualized targeting . . . will not, on
its own, support the exercise of specific jurisdiction”).

App. 75
disseminating Plaintiffs’ confidential and private
information – that are at issue in this action.5
(2)

Whether the Express Aiming
Requirement is Satisfied.

When considering the express aiming requirement,
the Supreme Court has held that courts must focus on
a defendant’s “own contacts” with the forum and not on
the plaintiff’s connections to the forum. See Axiom, 874
F.3d at 1070. The “express aiming” analysis “depends,
to a significant degree, on the specific type of tort or
other wrongful conduct at issue.” Picot v. Weston, 780
F.3d 1206, 1214 (9th Cir. 2015) (quoting
Schwarzenegger v. Fred Martin Motor Co., 374 F.3d
797, 807 (9th Cir. 2004)). To be satisfied, the “express
aiming” inquiry requires “something more” than “a
foreign act with foreseeable effects in the forum state.”
Washington Shoe Co. v. A-Z Sporting Goods Inc., 704
F.3d 668, 675 (9th Cir. 2012) (citing Bancroft & Masters,
Inc. v. Augusta Nat’l Inc., 223 F.3d 1082, 1087 (9th Cir.
2000)). For instance, the delivery or consumption of
products in the forum state that are “random,”
“fortuitous,” or “attenuated” does not satisfy the
express aiming analysis. Mavrix Photo, Inc. v. Brand
Technologies, Inc., 647 F.3d 1218, 1230 (9th Cir. 2011)
(quoting Burger King Corp. v. Rudzewicz, 471 U.S. 462,
486 (1985)).

5

In their Opposition to the Stonington Defendants’ Motion to Stay,
Plaintiffs concede that “it currently is unclear” whether Muzin
“participated in the dissemination of the stolen materials.” Motion
to Stay, 19:15-18.

App. 76
In Axiom Foods, the Ninth Circuit discussed how
the express aiming requirement should be applied
when all the alleged tortious conduct occurs online.
Axiom Foods involved the distribution of an email
newsletter that violated several trademarks to 343
email recipients, 55 of whom had companies in
California and 10 of whom were physically located in
California. The Ninth Circuit first rejected as too
attenuated the fact that 55 recipients had companies in
California, particularly where there was no information
about the residence of those recipients or the legal or
operational relationships between those recipients and
their companies Axiom Foods, 874 F.3d at 1070.
Focusing on the 10 recipients who were physically
located in California, the Ninth Circuit held that “[i]t
can hardly be said that California was the focal point
both of the newsletter and of the harm suffered.” Id. at
1070-71 (internal quotation marks and alterations
omitted). The Ninth Circuit stressed that sending one
newsletter to a maximum of 10 recipients located in
California, in a market where the defendant had no
sales or clients, “barely connected [the defendant] to
California residents, much less to California itself.” Id.
at 1071. Thus, although Axiom Foods does not
explicitly decide how the express aiming requirement
should be addressed when all of the alleged activity
occurs online, Axiom Foods does suggest that minimal
online activity, when unaccompanied by any
connections to the forum state in the physical world,
are not enough to confer personal jurisdiction.
At least one court in this circuit has explicitly
concluded the express aiming analysis is the same
whether the intentional tort was committed via the

App. 77
internet or in “the non-virtual world.” Erickson v.
Nebraska Machinery Co., 2015 WL 4089849, at *4
(N.D. Cal. July 6, 2015). In Erickson, the district court
concluded that a defendant who posted a California
plaintiff’s copyrighted images on its website did not
expressly aim its conduct at California. Id. The district
court reasoned that “[t]he mere act of copying
Erickson’s photographs and posting them on NMC’s
website did not involve entering California, contacting
anyone in California, or otherwise reaching out to
California.” Id. Similarly, in Caracal Enterprises LLC
v. Suranyi, 2017 WL 446313, at *2-3 (N.D. Cal. Feb. 2,
2017), another court in this circuit found that the
Calder test was not satisfied where “the only claimed
contact between [the defendant] and California is the
fact that [the defendant] allegedly misappropriated” a
software program licensed by a California company.
See also NexGen HBM v. Listreports, Inc., 2017 WL
4040808, at *1-5, 10-14 (D. Minn. Sept. 12, 2017)
(finding that the express aiming component of the
Calder test was not satisfied in case where defendants
allegedly misappropriated trade secrets and committed
other intentional torts by accessing a Minnesota-based
company’s website where there was no evidence that
the defendants knew the company was based in
Minnesota or intended the effects to be felt there).
In this case, the Court concludes that although
Plaintiffs allege in the First Amended Complaint that
their email server is located in Los Angeles and Google
LLC’s server(s) are located in California, “[i]t can
hardly be said that California was the focal point” of
the hacking. Axiom Foods, 784 F.3d at 1070-71.
Instead, the location of the servers appears to be

App. 78
“random,” “fortuitous,” or “attenuated” to Defendants’
purported actions and intent to hack Plaintiffs’
computer systems and accounts to obtain confidential
and private information to disseminate to the media.
See Mavrix Photo, 647 F.3d at 1230; see also Morrill v.
Scott Financial Corporation, 873 F.3d 1136, 1145 (9th
Cir. 2017) (stating that the foreseeability of some
incidental harm in the forum state does not show
express targeting and “obscures the reality that none of
[the] challenged conduct has anything to do with [the
forum state] itself” (alterations in original)).
Although Plaintiffs argue that the Stonington
Defendants’ “targeting and fingering” Plaintiffs is
sufficient to satisfy the express aiming requirement,
the Court disagrees. See Walden, 571 U.S. at 286
(explaining that “a defendant’s relationship with a
plaintiff or third party, standing alone, is an
insufficient basis for jurisdiction.”). As discussed above,
Plaintiffs cannot establish personal jurisdiction by
alleging that “Defendants” or “Agent Defendants” took
actions in or aimed at California because those sorts of
“shotgun” pleadings do not satisfy Plaintiffs’ burden to
demonstrate personal jurisdiction with respect to each
defendant. Head, 298 F. Supp. 3d at 973; see also
Calder, 465 U.S. at 790 (“Each defendant’s contacts
with the forum State must be assessed individually”);
Select Comfort Corp. v. Kittaneh, 161 F.Supp. 3d 724,
731 (D. Minn. 2014) (holding that each defendant’s
forum contacts must be considered independently).
Moreover, Plaintiffs do not allege that the Stonington
Defendants hacked Plaintiffs’ computer systems and
accounts and have conceded that it is “unclear” if the
Stonington Defendants participated in the

App. 79
dissemination of information. In fact, the only
“targeting and fingering” Plaintiffs affirmatively allege
by the Stonington Defendants involved discussions
about Broidy as an opponent in the public relation
battle between Qatar and the UAE and the Stonington
Defendants’ lobbying efforts against Broidy’s attempts
to undermine Qatar, and the great majority of these
activities are alleged to have taken place in either
Washington, D.C. or New York City.
Furthermore, the fact that Broidy Capital, a
California corporation, and Broidy, a California
resident, allegedly suffered harm as a result of the
Stonington Defendants’ actions is not sufficient to
satisfy this element of the Calder test. As the Supreme
Court recently re-iterated, the mere injury to a forum
resident is not a sufficient connection to the forum to
provide personal jurisdiction over a defendant under
Calder. See Walden, 571 U.S. at 289–90; see also
Axiom, 874 F.3d at 1069–70 (recognizing that in
Walden, the Supreme Court rejected the Ninth
Circuit’s conclusion that a defendant’s knowledge of a
plaintiffs’ strong forum connections plus the foreseeable
harm that a plaintiff suffers is sufficient to establish
specific jurisdiction). In this case, Plaintiffs have failed
to allege that the Stonington Defendants regularly
traveled to California, conducted any activities within
California, or had any other meaningful contacts
within California. Accordingly, the effects of the
Stonington Defendants’ allege conduct in “targeting
and fingering” Plaintiffs is “not connected to
[California] in a way that makes those effects a proper
basis for jurisdiction.” Id.

App. 80
(3)

Whether the Stonington
Defendants
Caused
Foreseeable Harm in the
Forum.

The final prong of the Calder test considers whether
a defendant’s actions “caused harm that it knew was
likely to be suffered in the forum.” Yahoo! Inc. v. La
Ligue Contre Le Racisme et L’Antisemitisme, 433 F.3d
1199, 1206 (9th Cir. 2006) (internal citation omitted).
“The touchstone of this requirement is not the
magnitude of the harm, but rather its foreseeability.”
Id. at 1207. There is foreseeable harm when a
jurisdictionally sufficient amount of harm is suffered in
the forum state. Id. However, “[t]he foreseeability of
injury in a forum” alone is not enough to confer
personal jurisdiction in that forum. Axiom Foods, 874
F.3d at 1070.
The Court concludes that Plaintiffs have failed to
establish the final prong of Calder. The Stonington
Defendants’ allegedly wrongful conduct consisted of
“targeting and fingering” Plaintiffs, which includes
discussing Plaintiffs at meetings the Stonington
Defendants had with various Qatari officials and others
in Washington, D.C. and New York City. Similarly,
Plaintiffs have failed to allege that any conversations
the Stonington Defendants may have had with
members of the press regarding Plaintiffs took place in
California. In addition, even if Plaintiffs could allege
that the Stonington Defendants were involved in the
hacking, “the fortuitous presence of a server” or
contacts with California-based technology companies
that are not parties to the litigation are not enough to

App. 81
confer personal jurisdiction. Rosen v. Terapeak, Inc.,
2015 WL 12724071, at *9 (C.D. Cal. Apr. 28, 2015)
(availability of app in California-based Apple’s App
Store, use of California-based eBay servers, and license
from eBay were insufficient to confer personal
jurisdiction in California); Browne v. McCain, 612 F.
Supp. 2d 1118, 1124 (C.D. Cal. 2009) (relationship with
California-based YouTube and presence of YouTube
servers in California insufficient to confer personal
jurisdiction in California); Chang v. Virgin Mobile
USA, LLC, 2009 WL 111570, at *3 (N.D. Tex. Jan. 16,
2009) (plaintiffs “cannot rely on the fortuitous location
of Flickr’s servers to establish personal jurisdiction”
over a defendant). Thus, the Court concludes that it
was not foreseeable that the Stonington Defendants’
conduct in other forums was likely to cause harm in
California. Accordingly, this prong of the Calder test
has not been satisfied.
Because the Court concludes that Plaintiffs have
failed to satisfy the first, second and third prongs of the
Calder purposeful direction test, Plaintiffs have failed
to meet the first part of the Ninth Circuit’s three-part
test for specific jurisdiction.
b. Claim Arises Out of or Relates to
Forum-Related Activities
To satisfy the second part of the specific jurisdiction
test, a plaintiff’s claims must “arise[ ] out of or relate[]
to the defendant’s forum-related activities.”
Schwarzenegger, 374 F.3d at 802. The Ninth Circuit
applies a “but for” test to determine forum-related
conduct. Fiore, 688 F.3d at 582. Therefore, a plaintiff
must demonstrate that it would not have suffered its

App. 82
alleged injuries in the forum state but for the
defendant’s actions. Id. Because the Stonington
Defendants lack any meaningful contact with
California and the Stonington Defendans’ alleged
“targeting and fingering” of Plaintiffs took place in
Washington D.C. and New York City, the Court
concludes that Plaintiffs have failed to satisfy the
second part of the specific jurisdiction test.
c. Reasonableness
Jurisdiction

of

Exercising

Even if Plaintiffs had been able to establish a prima
facie case for jurisdiction over the Stonington
Defendants, the burden would then shift to the
Stonington Defendants to present a compelling case as
to why exercising jurisdiction would not be reasonable.
Schwarzenegger, 374 F.3d at 802. In determining
whether jurisdiction is reasonable, courts consider
seven factors: (1) the extent of a defendant’s purposeful
interjection into the forum; (2) the burden on the
defendant in defending in the forum; (3) the extent of
conflict with the sovereignty of the defendant’s state;
(4) the forum state’s interest in adjudicating the
dispute; (5) the most efficient judicial resolution of the
dispute; (6) the importance of the forum to the
plaintiff’s interest in convenient and effective relief;
and (7) the existence of an alternative forum. See
CollegeSource, Inc. v. AcademyOne, Inc., 653 F.3d 1066,
1079 (9th Cir. 2011) (internal citation omitted). “No one
factor is dispositive; a court must balance all seven.”
Panavision Int’l, L.P. v. Toeppen, 141 F.3d 1316, 1323
(9th Cir.1998).

App. 83
In this case, the Court finds that it would be
unreasonable to exercise jurisdiction over the
Stonington Defendants. The Court concludes that the
Stonington Defendants could not have reasonably
anticipated that they would be required to defend this
action in California. Indeed, the Stonington Defendants
lack any contacts with California. In addition, it would
be extremely burdensome to require the Stonington
Defendants to defend this action in California given
that all of their personnel, including those with
knowledge of the facts relevant to this action, and their
potential witnesses are located on the East Coast and
would have to travel to California.
Regardless of whether this case is adjudicated in
California or another state, there is minimal concern
about conflicts with states’ sovereignty because many
of Plaintiffs’ claims are based on federal law and this
Court is confident any federal court that is tasked with
adjudicating those claims will be able to fairly and
correctly apply California law to Plaintiffs’ state law
claims. In addition, there is no indication that this
matter could be more efficiently resolved in California.
Although Plaintiff may have an interest in litigating
this action in California because it is more convenient,
the Ninth Circuit has held that “the plaintiff’s
convenience is not of paramount importance” to the
reasonableness inquiry Dole Food, Inc. v. Watts, 303
F.3d 1104, 1116 (9th Cir. 2002).
After balancing all of the reasonableness factors,
the Court finds that those factors weigh heavily in
favor of the Stonington Defendants. Therefore, the
Court concludes that it would be unreasonable to

App. 84
exercise personal jurisdiction over the Stonington
Defendants.
Accordingly, the Court concludes that it does not
have personal jurisdiction over the Stonington
Defendants.6
B. Jurisdictional Discovery
The decision whether to grant jurisdictional
discovery is typically within the discretion of the
district court. Wells Fargo & Co. v. Wells Fargo Exp.
Co., 556 F.2d 406, 430 n.24 (9th Cir. 1977). “[W]here
pertinent facts bearing on the question of jurisdiction
are in dispute, discovery should be allowed.” Am. West
Airlines, Inc. v. GPA Grp., Ltd., 877 F.2d 793, 801 (9th
Cir. 1989). However, “where a plaintiff’s claim of
personal jurisdiction appears to be both attenuated and
based on bare allegations in the face of specific denials
made by the defendants, the Court need not permit
even limited discovery.” Caddy, 453 F.3d at 1160

6

Plaintiffs cannot establish personal jurisdiction based on their
conspiracy claim. “California law does not recognize conspiracy as
a basis for acquiring jurisdiction over a foreign defendant.”
EcoDisc Tech. AG v. DVD Format/Logo Licensing Corp., 711 F.
Supp. 2d 1074, 1089 (C.D. Cal. 2010) (citations omitted).
Therefore, “actions taken by co-conspirators in furtherance of the
conspiracy cannot be attributed to a conspirator for purposes of
establishing personal jurisdiction.” Id.; see 12 Cal. Jur. 3d Civil
Conspiracy § 3 (“Conspiracy is not a basis for acquiring personal
jurisdiction over a party.”); see also Stauffacher v. Bennett, 969
F.2d 455, 460 (7th Cir.1992) (“The cases are unanimous that a bare
allegation of a conspiracy between the defendant and a person
within the personal jurisdiction of the court is not enough”),
superseded on other grounds by Fed. R. Civ. P. 4(k)(2).

App. 85
(quoting Terracom v. Valley Nat’l Bank, 49 F.3d 555,
562 (9th Cir. 1995)). Although Plaintiffs have
conducted substantial discovery and filed a First
Amended Complaint, they continue to rely on group
pleading and conclusory allegations, which are
insufficient to establish personal jurisdiction. Although
Plaintiffs request leave to amend and the opportunity
to conduct jurisdictional discovery, they have offered
nothing but mere speculation how that discovery would
assist in pleading facts that would allow the Court to
exercise personal jurisdiction over the Stonington
Defendants. Accordingly, the Court declines to grant
jurisdictional discovery or leave to amend.
IV.

Conclusion

For all the foregoing reasons, the Stonington
Defendants’ Motion to Dismiss for lack of personal
jurisdiction is GRANTED, and the Stonington
Defendants are DISMISSED from this action without
leave to amend.7 Plaintiffs’ request to amend their
First Amended Complaint and take jurisdictional
discovery is DENIED. In light of the Court’s dismissal
of the Stonington Defendants from this action, the
Stonington Defendants’ Motion to Stay is DENIED as
moot.
IT IS SO ORDERED.

7

Because the Court concludes that it does not have personal
jurisdiction over the Stonington Defendants, it need not address
the Stonington Defendants’ arguments with respect to derivative
sovereign immunity, diplomatic agent immunity, or Plaintiffs’
failure to state a claim.

App. 86

APPENDIX D
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES -- GENERAL
Case No. CV 18-2421-JFW(Ex)
[Filed August 22, 2018]
Date: August 22, 2018
Title: Broidy Capital Management, LLC, et al. -vState of Qatar, et al.
PRESENT:
HONORABLE JOHN F. WALTER,
UNITED STATES DISTRICT JUDGE
Shannon Reilly
Courtroom Deputy

None Present
Court Reporter

ATTORNEYS PRESENT FOR PLAINTIFFS:
None
ATTORNEYS PRESENT FOR DEFENDANTS:
None
PROCEEDINGS (IN CHAMBERS):
ORDER
GRANTING
GLOBAL
RISK
ADVISORS LLC’S AND KEVIN CHALKER’S
MOTION TO DISMISS PURSUANT TO RULES
12(b)(1), (b)(2), AND 12(b)(6) OF THE

App. 87
FEDERAL RULES OF CIVIL PROCEDURE
[filed 7/23/18; Docket No. 172]
On July 23, 2018, Defendants Global Risk Advisors
LLC (“Global Risk”) and Kevin Chalker (“Chalker”)
(collectively, the “Global Defendants”) filed a Motion to
Dismiss Pursuant to Rules 12(b)(1), (b)(2) and 12(b)(6)
of the Federal Rules of Civil Procedure (“Motion”). On
August 6, 2018, Plaintiffs Broidy Capital Management
LLC (“Broidy Capital”) and Elliott Broidy (“Broidy”)
(collectively, “Plaintiffs”) filed their Opposition. On
August 13, 2018, the Global Defendants filed a Reply.
Pursuant to Rule 78 of the Federal Rules of Civil
Procedure and Local Rule 7-15, the Court finds that
this matter is appropriate for decision without oral
argument. The hearing calendared for August 27, 2018
is hereby vacated and the matter taken off calendar.
After considering the moving, opposing, and reply
papers, and the arguments therein, the Court rules as
follows:
I.

Factual and Procedural Background

Broidy is a California businessman who owns and
operates California-based Broidy Capital and is a
prominent critic of the State of Qatar’s (“Qatar”)
policies. In late 2017, hackers began using
sophisticated techniques to infiltrate the computer
systems and accounts belonging to Plaintiffs and
certain of their associates and family members. First
Amended Complaint (“FAC”), ¶ 97-116. As a result, the
hackers stole Plaintiffs’ personal and professional files,
correspondence, trade secrets, business plans, and
other confidential and private documents. The
confidential information was packaged into documents

App. 88
that were disseminated to journalists affiliated with
various media organizations in the United States. The
journalists then wrote stories that largely exploited the
private and confidential information contained in the
stolen documents. Forensic investigators retained by
Plaintiffs, Ankura Consulting Group, LLC (“Ankura”),
initially determined that the unauthorized access
originated from Internet Protocol (“IP”) addresses in
the United Kingdom and the Netherlands. However, a
more thorough review of server data revealed that on
February 14 and 19, 2018, the attackers accessed
Broidy Capital’s server from an IP address in Doha,
Qatar. Broidy claims that he became aware of Qatar’s
involvement in these unlawful actions through Joel
Mowbray (“Mowbray”), a longstanding acquaintance of
both Nicolas D. Muzin (“Muzin”), who owns and
operates Stonington Strategy LLC (“Stonington”), and
Broidy. FAC, ¶¶ 10-13 and 133-37. In a conversation
with Mowbray – the contents of which Mowbray later
relayed to Broidy – Muzin told Mowbray that Qatar
was “after” Mowbray and Broidy. Based on Mowbray’s
conversations with Muzin (and the discovery of the IP
address in Doha, Qatar), Broidy concluded that Qatar
was responsible for the attack on his and Broidy
Capital’s computer systems and accounts and filed this
action on March 26, 2018.
Plaintiffs’ original Complaint alleged seven tort
causes of action against Defendants Qatar, Muzin, and
Stonington and alleged that Plaintiffs’ computer
systems were accessed without authorization from an
IP address in Qatar and that their contents were
subsequently disseminated to media outlets. On April
2, 2018, Plaintiffs filed an Ex Parte Application for

App. 89
Temporary Restraining Order (“Application”) and a
request for expedited discovery. On April 4, 2018, the
Court entered an Order denying Plaintiffs’ Application
and request for expedited discovery.
On May 24, 2018, Plaintiffs filed a First Amended
Complaint, alleging causes of action for: (1) violation of
the Computer Fraud and Abuse Act, 18 U.S.C.
§§ 1030(a)(2)(C) and (a)(5); (2) violation of the
California Comprehensive Computer Data Access and
Fraud Act, California Penal Code § 502; (3) receipt and
possession of stolen property in violation of California
Penal Code § 496; (4) invasion of privacy by intrusion
upon seclusion; (5) conversion; (6) violation of Stored
Communications Act, 18 U.S.C. § 27012; (7) violation
of Digital Millennium Copyright Act, 17 U.S.C. § 1201
et seq.; (8) violation of the California Uniform Trade
Secrets Act, California Civil Code § 3426 et seq.;
(9) misappropriation of trade secrets in violation of the
Trade Secrets Act, 18 U.S.C. § 1836 et seq.; and
(10) civil conspiracy. The First Amended Complaint
added a number of factual allegations, many on
information and belief, concerning the method by which
the hack purportedly occurred, including that the
hackers used virtual private networks to disguise their
identities. FAC, ¶¶ 97-116. Plaintiffs also alleged that
the “hack” began with “phishing” emails, disguised as
Gmail security alerts, sent to Broidy’s wife and his
executive assistant on January 14, 2018. Id.,
¶¶ 97-100, 109-111. Plaintiffs alleged that Broidy’s
wife and his executive assistant provided their
usernames and passwords in response to these
disguised Gmail security alerts, which an unidentified
third party then used to access the email accounts and

App. 90
remotely control those accounts via a Russian mail
service called “mail.ru.” Id. Plaintiffs contend that the
third party logged into Plaintiffs’ email accounts on
“thousands” of occasions, using different IP addresses.
Id., ¶ 113. Although Plaintiffs also named additional
defendants, including Sheikh Mohammed Bin Hamad
Bin Khalifa Al Thani (“Al Thani”), Ahmed Al-Rumaihi
(“Al-Rumaihi”), Chalker, David Mark Powell (“Powell”),
and Global Risk, in their First Amended Complaint
Plaintiffs did not plead any specific facts suggesting
that these defendants were engaged in any unlawful
hacking activity. Plaintiffs allege that Qatar is
responsible for the hack based on the two logins
determined to have originated from an IP address
registered to a computer located somewhere in Doha,
Qatar. Id., ¶ 115.
With respect to the Global Defendants, the First
Amended Complaint contains only seven allegations,
and six of those allegations are made on information
and belief. Plaintiffs allege that Global Risk is
headquartered in New York City and its subsidiary,
Global Risk Advisors (EMEA) Limited (“Global Risk
EMEA”) is based in Doha, Qatar. Id., ¶¶ 5 and 25.
Plaintiffs also allege that Global Risk EMEA obtained
a license to operate in Qatar months before the alleged
conspiracy began and that Global Risk EMEA had been
retained to conduct or coordinate offensive cyber
operations on behalf of Qatar. Id., ¶ 95. In addition, on
information and belief, Plaintiffs allege that the Global
Risk Defendants “personally supervised” aspects of an
“information operation against Plaintiffs” and that
unspecified “Qatari Defendants” retained the Global
Risk Defendants “to coordinate and implement the

App. 91
hack.” Id., ¶ 6. However, Plaintiffs do not allege the
any details of the Global Risk Defendants’ purported
supervision. Plaintiffs also do not allege when or where
the Global Defendants’ alleged coordination and
implementation of the hack occurred or what the
alleged coordination and implementation entailed.
Moreover, Plaintiffs allege on information and belief
that the Global Risk Defendants introduced Qatar to
unspecified “cyber mercenaries” in “various [but
unspecified] countries.” Id., at ¶¶ 6-7. Although
Plaintiffs do not allege what role, if any, the Global
Risk Defendants played in the dissemination of
Plaintiffs’ materials obtained through the alleged hack,
Plaintiffs allege that Qatar, acting through “Agent
Defendants,” was responsible for disseminating the
emails and documents allegedly stolen from Plaintiffs.1
Id., ¶ 126. Plaintiffs also do not allege that any of
Plaintiffs’ emails were ever possessed, let alone
disseminated, by the Global Risk Defendants.
II.

Legal Standard
A. Rule 12(b)(1)

The party mounting a Rule 12(b)(1) challenge to the
Court’s jurisdiction may do so either on the face of the
pleadings or by presenting extrinsic evidence for the
Court’s consideration. See White v. Lee, 227 F.3d 1214,
1242 (9th Cir. 2000) (“Rule 12(b)(1) jurisdictional

1

In the First Amended Complaint, Plaintiffs generally allege that
they were “targeted” by the “Defendants” and the “Agent
Defendants.” Id. at 91. “Agent Defendants” is defined as including
Stonington, Muzin, the Global Risk Defendants, Powell,
Al-Rumaihi and ten additional “John Doe” defendants.

App. 92
attacks can be either facial or factual”). “In a facial
attack, the challenger asserts that the allegations
contained in a complaint are insufficient on their face
to invoke federal jurisdiction.” Safe Air for Everyone v.
Meyer, 373 F.3d 1035, 1039 (9th Cir. 2004). In ruling
on a Rule 12(b)(1) motion attacking the complaint on
its face, the Court accepts the allegations of the
complaint as true. See, e.g., Wolfe v. Strankman, 392
F.3d 358, 362 (9th Cir. 2004). “By contrast, in a factual
attack, the challenger disputes the truth of the
allegations that, by themselves, would otherwise
invoke federal jurisdiction.” Safe Air, 373 F.3d at 1039.
“With a factual Rule 12(b)(1) attack . . . a court may
look beyond the complaint to matters of public record
without having to convert the motion into one for
summary judgment. It also need not presume the
truthfulness of the plaintiff[‘s] allegations.” White, 227
F.3d at 1242 (internal citation omitted); see also
Thornhill Pub. Co., Inc. v. General Tel & Electronics
Corp., 594 F.2d 730, 733 (9th Cir. 1979) (“Where the
jurisdictional issue is separable from the merits of the
case, the judge may consider the evidence presented
with respect to the jurisdictional issue and rule on that
issue, resolving factual disputes if necessary. . . ‘[N]o
presumptive truthfulness attaches to plaintiff’s
allegations, and the existence of disputed material facts
will not preclude the trial court from evaluating for
itself the merits of jurisdictional claims.’”) (quoting
Mortensen v. First Fed. Sav. & Loan Ass’n, 549 F.2d
884, 891 (9th Cir. 1977)). “However, where the
jurisdictional issue and substantive issues are so
intertwined that the question of jurisdiction is
dependent on the resolution of factual issues going to
the merits, the jurisdictional determination should

App. 93
await a determination of the relevant facts on either a
motion going to the merits or at trial.” Augustine v.
U.S., 704 F.2d 1074, 1077 (9th Cir. 1983). It is the
plaintiff who bears the burden of demonstrating that
the Court has subject matter jurisdiction to hear the
action. See Kokkonen v. Guardian Life Ins. Co., 511
U.S. 375, 377 (1994); Stock West, Inc. v. Confederated
Tribes, 873 F.2d 1221, 1225 (9th Cir. 1989).
B. Rule 12(b)(2)
Under Rule 12(b)(2) of the Federal Rules of Civil
Procedure, the Court may decide a question of personal
jurisdiction on the basis of affidavits and documentary
evidence submitted by the parties, or may hold an
evidentiary hearing on the matter. See 5A Wright &
Miller, Federal Practice and Procedure, § 1351, at pp.
253-59 and n. 31-35 (2d ed. 1990); Rose v. Granite City
Police Dept., 813 F. Supp. 319, 321 (E.D. Pa. 1993).
Whichever procedure is used, plaintiff bears the burden
of establishing that jurisdiction is proper. See Ziegler v.
Indian River County, 64 F.3d 470, 473 (9th Cir. 1995);
Flynt Distributing Co. v. Harvey, 734 F.2d 1389, 1392
(9th Cir. 1984). In this case, the pleadings, declarations
and documentary evidence submitted by the parties
provide an adequate basis for evaluating jurisdiction.
Accordingly, no evidentiary hearing is necessary.
Because this matter is being decided on the basis of
affidavits and documentary evidence, Plaintiffs need
only make a prima facie showing of personal
jurisdiction. See Fields v. Sedgwick Associated Risks,
Ltd., 796 F.2d 299, 301 (9th Cir. 1986). All allegations
in Plaintiffs’ complaint must be taken as true, to the
extent not controverted by Defendant’s affidavits, and

App. 94
all conflicts in the evidence must be resolved in their
favor. AT&T Co. v. Compagnie Bruxelles Lambert, 94
F.3d 586, 588 (9th Cir. 1996) (citing WNS, Inc. v.
Farrow, 884 F.2d 200, 203 (5th Cir. 1989)). If Plaintiffs’
evidence constitutes a prima facie showing, this is
adequate to support a finding of jurisdiction,
“notwithstanding [a] contrary presentation by the
moving party.” Wenz v. Memery Crystal, 55 F.3d 1503,
1505 (10th Cir. 1995).
C. Rule 12(b)(6)
A motion to dismiss brought pursuant to Federal
Rule of Civil Procedure 12(b)(6) tests the legal
sufficiency of the claims asserted in the complaint. “A
Rule 12(b)(6) dismissal is proper only where there is
either a ‘lack of a cognizable legal theory’ or ‘the
absence of sufficient facts alleged under a cognizable
legal theory.’” Summit Technology, Inc. v. High-Line
Medical Instruments Co., Inc., 922 F. Supp. 299, 304
(C.D. Cal. 1996) (quoting Balistreri v. Pacifica Police
Dept., 901 F.2d 696, 699 (9th Cir. 1988)). However,
“[w]hile a complaint attacked by a Rule 12(b)(6) motion
to dismiss does not need detailed factual allegations, a
plaintiff’s obligation to provide the ‘grounds’ of his
‘entitlement to relief’ requires more than labels and
conclusions, and a formulaic recitation of the elements
of a cause of action will not do.” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555 (2007) (internal citations
and alterations omitted). “[F]actual allegations must be
enough to raise a right to relief above the speculative
level.” Id.
In deciding a motion to dismiss, a court must accept
as true the allegations of the complaint and must

App. 95
construe those allegations in the light most favorable
to the nonmoving party. See, e.g., Wyler Summit
Partnership v. Turner Broadcasting System, Inc., 135
F.3d 658, 661 (9th Cir. 1998). “However, a court need
not accept as true unreasonable inferences,
unwarranted deductions of fact, or conclusory legal
allegations cast in the form of factual allegations.”
Summit Technology, 922 F. Supp. at 304 (citing
Western Mining Council v. Watt, 643 F.2d 618, 624 (9th
Cir. 1981) cert. denied, 454 U.S. 1031 (1981)).
“Generally, a district court may not consider any
material beyond the pleadings in ruling on a Rule
12(b)(6) motion.” Hal Roach Studios, Inc. v. Richard
Feiner & Co., 896 F.2d 1542, 1555 n. 19 (9th Cir. 1990)
(citations omitted). However, a court may consider
material which is properly submitted as part of the
complaint and matters which may be judicially noticed
pursuant to Federal Rule of Evidence 201 without
converting the motion to dismiss into a motion for
summary judgment. See, e.g., id.; Branch v. Tunnel, 14
F.3d 449, 454 (9th Cir. 1994).
Where a motion to dismiss is granted, a district
court must decide whether to grant leave to amend.
Generally, the Ninth Circuit has a liberal policy
favoring amendments and, thus, leave to amend should
be freely granted. See, e.g., DeSoto v. Yellow Freight
System, Inc., 957 F.2d 655, 658 (9th Cir. 1992).
However, a Court does not need to grant leave to
amend in cases where the Court determines that
permitting a plaintiff to amend would be an exercise in
futility. See, e.g., Rutman Wine Co. v. E. & J. Gallo
Winery, 829 F.2d 729, 738 (9th Cir. 1987) (“Denial of

App. 96
leave to amend is not an abuse of discretion where the
pleadings before the court demonstrate that further
amendment would be futile.”).
III.

Discussion
A. Plaintiffs Have Not Demonstrated that
the Global Risk Defendants Are Subject
to Personal Jurisdiction in California.

Whether a federal court can exercise personal
jurisdiction over a non-resident defendant turns on two
independent considerations: whether an applicable
state rule or statute permits service of process on the
defendant, and whether the assertion of personal
jurisdiction comports with constitutional due process
principles. See Pac. Atl. Trading Co. v. M/V Main
Express, 758 F.2d 1325, 1327 (9th Cir. 1985).
California’s long-arm statute extends jurisdiction to the
limits of constitutional due process. See Gordy v. Daily
News, L.P., 95 F.3d 829, 831 (9th Cir. 1996); Cal. Code.
Civ. Proc. § 410.10 (“A court of this state may exercise
jurisdiction on any basis not inconsistent with the
Constitution of this state or of the United States”).
Consequently, when service of process has been
effected under California law, the two prongs of the
jurisdictional analysis collapse into one—whether the
exercise of jurisdiction over the defendant comports
with due process. See Fireman’s Fund Ins. Co. v. Nat’l
Bank of Cooperative, 103 F.3d 888, 893 (9th Cir. 1996);
Aanestad v. Beech Aircraft Corp., 521 F.2d 1298, 1300
(9th Cir. 1974).
The Fourteenth Amendment’s Due Process Clause
permits courts to exercise personal jurisdiction over a

App. 97
defendant who has sufficient “minimum contacts” with
the forum state such that “maintenance of the suit does
not offend traditional notions of fair play and
substantial justice.” Int’l Shoe Co. v. Washington, 326
U.S. 310, 316 (1945). There are two recognized bases
for personal jurisdiction over nonresident defendants:
(1) “general jurisdiction,” which arises where the
defendant’s activities in the forum state are sufficiently
“substantial” or “continuous and systematic” to justify
the exercise of jurisdiction over him in all matters; and
(2) “specific jurisdiction,” which arises when a
defendant’s specific contacts with the forum have given
rise to the claim in question. See Helicopteros
Nacionales de Columbia S.A. v. Hall, 466 U.S. 408,
414–16 (1984); Doe v. Am. Nat’l Red Cross, 112 F.3d
1048, 1050–51 (9th Cir. 1997).
1. General Jurisdiction
General jurisdiction allows a court to hear any and
all claims against a defendant regardless of whether
the claims relate to the defendant’s contacts with the
forum state. See Schwarzenegger v. Fred Martin Motor
Co., 374 F.3d 797, 801 (9th Cir. 2004) (“[A] finding of
general jurisdiction permits a defendant to be haled
into court in the forum state to answer for any of its
activities in the world.”). For general jurisdiction to
exist, a defendant’s affiliations with the forum state
must be “so ‘continuous and systematic’ as to render [it]
essentially at home in the forum[.]” Daimler AG v.
Bauman, 571 U.S. 117, 138–39 (2014) (quoting
Goodyear Dunlop Tires Operations, S.A. v. Brown, 564
U.S. 915, 919 (2011)). In the case of a corporation,
“[t]he paradigmatic locations where general jurisdiction

App. 98
is appropriate . . . are its place of incorporation and its
principal place of business.” Ranza v. Nike, Inc., 793
F.3d 1059, 1069 (9th Cir. 2015) (internal citation
omitted). “Only in an ‘exceptional case’ will general
jurisdiction be available anywhere else.” Martinez v.
Aero Caribbean, 764 F.3d 1062, 1070 (9th Cir. 2014).
Plaintiffs do not contend that the Global Risk
Defendants are subject to general jurisdiction in
California. Indeed, in the First Amended Complaint,
Plaintiffs allege that Global Risk is “a limited liability
company formed under the law of Delaware, with its
primary place of business in New York, New York,” and
that Chalker “is a citizen of the United States and is
domiciled in the state of New York.” FAC, ¶¶ 22-23.
Therefore, the Global Risk Defendants are not
residents of California. Moreover, the First Amended
Complaint is devoid of any allegations that suggest
that the Global Risk Defendants’ contacts with
California “are so continuous and systematic as to
render [it] essentially at home” in the state. Daimler,
571 U.S. at 138–39 (internal quotation marks and
citation omitted). In addition, there is nothing about
this case that would suggest it is an exceptional case
that would justify finding general jurisdiction outside
of Global Risk’s place of incorporation and principal
place of business or Chalker’s state of residency. See
Lindora, LLC v. Isagenix Int’l, LLC, 198 F. Supp. 3d
1127, 1137–38 (S.D. Cal. 2016). Accordingly, the Court
concludes that the Global Risk Defendants are not
subject to general jurisdiction in California.

App. 99
2. Specific Jurisdiction
For a court to exercise specific jurisdiction, the
plaintiff’s suit must arise out of or relate to the
defendant’s contacts with the forum. Bristol-Meyers
Squibb Co. v. Superior Ct., 137 S. Ct. 1773, 1778
(2017). The Ninth Circuit applies a three-part test to
determine whether a court has specific jurisdiction over
a defendant:
(1) The non-resident defendant must
purposefully direct his activities or consummate
some transaction with the forum or resident
thereof; or perform some act by which he
purposefully avails himself of the privilege of
conducting activities in the forum, thereby
invoking the benefits and protections of its laws;
(2) the plaintiff’s claim must be one which arises
out of or relates to the defendant’s forum-related
activities; and
(3) the exercise of jurisdiction must comport with
fair play and substantial justice, i.e., it must be
reasonable.
Axiom Foods, Inc. v. Acerchem Int’l, Inc., 874 F.3d
1064, 1068 (9th Cir. 2017). A plaintiff bears the burden
of establishing the first two prongs. Schwarzenegger,
374 F.3d at 802. If the plaintiff fails to satisfy either of
the first two prongs, then personal jurisdiction over the
defendant does not lie in the forum state. If the
plaintiff succeeds on the first two prongs, then the
defendant must present a compelling case as to why
exercising jurisdiction would be unreasonable. Id.

App. 100
a. Purposeful Direction
The first prong of the specific jurisdiction test,
although commonly referred to as the purposeful
availment requirement, actually consists of two distinct
concepts. Id. A plaintiff may satisfy this element by
demonstrating that the defendant “has either
(1) ‘purposefully availed’ [it]self of the privilege of
conducting activities in the forum [state], or
(2) ‘purposefully directed’ [its] activities toward the
forum.” Pebble Beach Co. v. Caddy, 453 F.3d 1151,
1155 (9th Cir. 2006). The purposeful availment concept
generally applies in contract cases, whereas the
purposeful direction concept applies in tort cases.
Axiom, 874 F.3d at 1069; see also Fiore v. Walden, 688
F.3d 558, 576 (9th Cir. 2012), rev’d on other grounds by
Walden v. Fiore, 571 U.S. 277 (2014). Because Plaintiff
alleges that the Global Risk Defendants engaged in
tortious conduct, the Court will apply the purposeful
direction test. See Axiom, 874 F. 3d at 1069.
To determine whether a defendant purposefully
directed its tortious activity toward the forum state, a
court must apply the “effects test” from Calder v. Jones,
465 U.S. 783 (1984). Id. This test examines whether:
(1) the defendant committed an intentional act; (2) the
act was expressly aimed at the forum state; and (3) the
act caused harm the defendant knew would likely be
suffered in the forum state. Id.

App. 101
(1)

Whether the Global Risk
Defendants Committed an
Intentional Act.

In the context of the Calder test, an intentional act
is “an external manifestation of the actor’s intent to
perform an actual, physical act in the real world, not
including any of its actual or intended results.”
Washington Shoe Co. v. A-Z Sporting Goods, Inc., 704
F.3d 668, 675 (9th Cir. 2012). Plaintiffs allege on
information and belief that the Global Risk Defendants
“personally supervised” aspects of the “information
operation against Plaintiffs.” However, Plaintiffs fail to
allege any facts to support these conclusory allegations.
Bengley v. County of Kauai, 2018 WL 363 8083 (D.
Haw. July 31, 2018) (“The district court has stated,
although allegations upon information and belief may
state a claim after Iqbal and Twombly, a claim must
still be based on factual content that makes liability
plausable, and not be formulaic recitations of the
elements of a cause of action”) (internal quotations
omitted). In addition, although Plaintiffs allege that
generic “Defendants” or “Agent Defendants” conducted
or otherwise took part in disseminating Plaintiffs’
stolen information to the media, Plaintiffs do not
dispute – because they could not – that the conclusory
allegations against “Defendants” or “Agent Defendants”
are insufficient to establish personal jurisdiction of the
Global Risk Defendants. See, e.g., Head v. Las Vegas
Sands, LLC, 298 F. Supp. 3d 963, 973 (S.D. Tex.2018)
(“[A] plaintiff must submit evidence supporting
personal jurisdiction over each defendant, and cannot
simply lump them all together”) (citing Calder, 465
U.S. at 790).

App. 102
Therefore, the Court concludes that Plaintiffs have
failed to sufficiently allege that the Global Risk
Defendants committed any of the intentional acts, such
as hacking Plaintiffs’ computer systems or accounts or
disseminating Plaintiffs’ confidential and private
information – that are at issue in this action.
(2)

Whether the Express Aiming
Requirement is Satisfied.

When considering the express aiming requirement,
the Supreme Court has held that courts must focus on
a defendant’s “own contacts” with the forum and not on
the plaintiff’s connections to the forum. See Axiom, 874
F.3d at 1070. The “express aiming” analysis “depends,
to a significant degree, on the specific type of tort or
other wrongful conduct at issue.” Picot v. Weston, 780
F.3d 1206, 1214 (9th Cir. 2015) (quoting
Schwarzenegger v. Fred Martin Motor Co., 374 F.3d
797, 807 (9th Cir. 2004)). To be satisfied, the “express
aiming” inquiry requires “something more” than “a
foreign act with foreseeable effects in the forum state.”
Washington Shoe Co. v. A-Z Sporting Goods Inc., 704
F.3d 668, 675 (9th Cir. 2012) (citing Bancroft & Masters,
Inc. v. Augusta Nat’l Inc., 223 F.3d 1082, 1087 (9th Cir.
2000)). For instance, the delivery or consumption of
products in the forum state that are “random,”
“fortuitous,” or “attenuated” does not satisfy the
express aiming analysis. Mavrix Photo, Inc. v. Brand
Technologies, Inc., 647 F.3d 1218, 1230 (9th Cir. 2011)
(quoting Burger King Corp. v. Rudzewicz, 471 U.S. 462,
486 (1985)).
In Axiom Foods, the Ninth Circuit discussed how
the express aiming requirement should be applied

App. 103
when all the alleged tortious conduct occurs online.
Axiom Foods involved the distribution of an email
newsletter that violated several trademarks to 343
email recipients, 55 of whom had companies in
California and 10 of whom were physically located in
California. The Ninth Circuit first rejected as too
attenuated the fact that 55 recipients had companies in
California, particularly where there was no information
about the residence of those recipients or the legal or
operational relationships between those recipients and
their companies. Axiom Foods, 874 F.3d at 1070.
Focusing on the 10 recipients who were physically
located in California, the Ninth Circuit held that “[i]t
can hardly be said that California was the focal point
both of the newsletter and of the harm suffered.” Id. at
1070-71 (internal quotation marks and alterations
omitted). The Ninth Circuit stressed that sending one
newsletter to a maximum of 10 recipients located in
California, in a market where the defendant had no
sales or clients, “barely connected [the defendant] to
California residents, much less to California itself.” Id.
at 1071. Thus, although Axiom Foods does not
explicitly decide how the express aiming requirement
should be addressed when all of the alleged activity
occurs online, Axiom Foods does suggest that minimal
online activity, when unaccompanied by any
connections to the forum state in the physical world,
are not enough to confer personal jurisdiction.
At least one court in this circuit has explicitly
concluded the express aiming analysis is the same
whether the intentional tort was committed via the
internet or in “the non-virtual world.” Erickson v.
Nebraska Machinery Co., 2015 WL 4089849, at *4

App. 104
(N.D. Cal. July 6, 2015). In Erickson, the district court
concluded that a defendant who posted a California
plaintiff’s copyrighted images on its website did not
expressly aim its conduct at California. Id. The district
court reasoned that “[t]he mere act of copying
Erickson’s photographs and posting them on NMC’s
website did not involve entering California, contacting
anyone in California, or otherwise reaching out to
California.” Id. Similarly, in Caracal Enterprises LLC
v. Suranyi, 2017 WL 446313, at *2-3 (N.D. Cal. Feb. 2,
2017), another court in this circuit found that the
Calder test was not satisfied where “the only claimed
contact between [the defendant] and California is the
fact that [the defendant] allegedly misappropriated” a
software program licensed by a California company.
See also NexGen HBM v. Listreports, Inc., 2017 WL
4040808, at *1-5, 10-14 (D. Minn. Sept. 12, 2017)
(finding that the express aiming component of the
Calder test was not satisfied in case where defendants
allegedly misappropriated trade secrets and committed
other intentional torts by accessing a Minnesota-based
company’s website where there was no evidence that
the defendants knew the company was based in
Minnesota or intended the effects to be felt there).
In this case, the Court concludes that although
Plaintiffs allege in the First Amended Complaint that
their email server is located in Los Angeles and Google
LLC’s server(s) are located in California, “[i]t can
hardly be said that California was the focal point” of
the hacking. Axiom Foods, 784 F.3d at 1070-71.
Instead, the location of the servers appears to be
“random,” “fortuitous,” or “attenuated” to Defendants’
purported actions and intent to hack Plaintiffs’

App. 105
computer systems and accounts to obtain confidential
and private information to disseminate to the media.
See Mavrix Photo, 647 F.3d at 1230; see also Morrill v.
Scott Financial Corporation, 873 F.3d 1136, 1145 (9th
Cir. 2017) (stating that the foreseeability of some
incidental harm in the forum state does not show
express targeting and “obscures the reality that none of
[the] challenged conduct has anything to do with [the
forum state] itself” (alterations in original)).
Although Plaintiffs argue that the Global Risk
Defendants’ “personal supervision” of the “information
operation against Plaintiffs” is sufficient to satisfy the
express aiming requirement, the Court disagrees. See
Walden, 571 U.S. at 286 (explaining that “a defendant’s
relationship with a plaintiff or third party, standing
alone, is an insufficient basis for jurisdiction.”). The few
scant allegations referring to the Global Risk
Defendants are based on information and belief and
Plaintiffs fail to allege any factual basis for any of
these allegations. Iqbal, 556 U.S. at 686 (“[The Federal
Rules do not require courts to credit a complaint’s
conclusory statements without reference to its factual
context”). In addition, as discussed above, Plaintiffs
cannot establish personal jurisdiction by alleging that
“Defendants” or “Agent Defendants” took actions in or
aimed at California because those sorts of “shotgun”
pleadings do not satisfy Plaintiffs’ burden to
demonstrate personal jurisdiction with respect to each
defendant. Head, 298 F. Supp. 3d at 973; see also
Calder, 465 U.S. at 790 (“Each defendant’s contacts
with the forum State must be assessed individually”);
Select Comfort Corp. v. Kittaneh, 161 F.Supp. 3d 724,

App. 106
731 (D. Minn. 2014) (holding that each defendant’s
forum contacts must be considered independently).
Furthermore, the fact that Broidy Capital, a
California corporation, and Broidy, a California
resident, allegedly suffered harm as a result of the
Global Risk Defendants’ actions is not sufficient to
satisfy this element of the Calder test. As the Supreme
Court recently re-iterated, the mere injury to a forum
resident is not a sufficient connection to the forum to
provide personal jurisdiction over a defendant under
Calder. See Walden, 571 U.S. at 289–90; see also
Axiom, 874 F.3d at 1069–70 (recognizing that in
Walden, the Supreme Court rejected the Ninth
Circuit’s conclusion that a defendant’s knowledge of a
plaintiffs’ strong forum connections plus the foreseeable
harm that a plaintiff suffers is sufficient to establish
specific jurisdiction). In this case, Plaintiffs have failed
to allege that the Global Risk Defendants regularly
traveled to California, conducted any activities within
California, or had any other meaningful contacts
within California. Accordingly, the effects of the Global
Risk Defendants’ allege conduct in “personally
supervising” aspects of the “information operation
against Plaintiffs” is “not connected to [California] in a
way that makes those effects a proper basis for
jurisdiction.” Id.
(3)

Whether the Global Risk
Defendants
Caused
Foreseeable Harm in the
Forum.

The final prong of the Calder test considers whether
a defendant’s actions “caused harm that it knew was

App. 107
likely to be suffered in the forum.” Yahoo! Inc. v. La
Ligue Contre Le Racisme et L’Antisemitisme, 433 F.3d
1199, 1206 (9th Cir. 2006) (internal citation omitted).
“The touchstone of this requirement is not the
magnitude of the harm, but rather its foreseeability.”
Id. at 1207. There is foreseeable harm when a
jurisdictionally sufficient amount of harm is suffered in
However, “[t]he foreseeability of injury in a forum”
alone is not enough to confer personal jurisdiction in
that forum. Axiom Foods, 874 F.3d at 1070.
The Court concludes that Plaintiffs have failed to
establish the final prong of Calder. The Global Risk
Defendants’ allegedly wrongful conduct consisted of
“personally supervising” aspects of the “information
operation against Plaintiffs,” and Plaintiffs speculate
that this was accomplished by the Global Defendants,
who are located in New York City, and its subsidiary,
Global Risk EMEA, located in Doha, Qatar.
Accordingly, Plaintiffs have failed to allege that any of
the purported “coordination and implementation” of the
hack by the Global Risk Defendants took place in
California, rather than in New York or Qatar. In
addition, “the fortuitous presence of a server” or
contacts with California-based technology companies
that are not parties to the litigation are not enough to
confer personal jurisdiction. Rosen v. Terapeak, Inc.,
2015 WL 12724071, at *9 (C.D. Cal. Apr. 28, 2015)
(availability of app in California-based Apple’s App
Store, use of California-based eBay servers, and license
from eBay were insufficient to confer personal
jurisdiction in California); Browne v. McCain, 612 F.
Supp. 2d 1118, 1124 (C.D. Cal. 2009) (relationship with
California-based YouTube and presence of YouTube

App. 108
servers in California insufficient to confer personal
jurisdiction in California); Chang v. Virgin Mobile
USA, LLC, 2009 WL 111570, at *3 (N.D. Tex. Jan. 16,
2009) (plaintiffs “cannot rely on the fortuitous location
of Flickr’s servers to establish personal jurisdiction”
over a defendant). Thus, the Court concludes that it
was not foreseeable that the Global Risk Defendants’
conduct in other forums was likely to cause harm in
California. Accordingly, this prong of the Calder test
has not been satisfied.
Because the Court concludes that Plaintiffs have
failed to satisfy the first, second and third prongs of the
Calder purposeful direction test, Plaintiffs have failed
to meet the first part of the Ninth Circuit’s three-part
test for specific jurisdiction.
b. Claim Arises Out of or Relates to
Forum-Related Activities
To satisfy the second part of the specific jurisdiction
test, a plaintiff’s claims must “arise[ ] out of or relate[]
to the defendant’s forum-related activities.”
Schwarzenegger, 374 F.3d at 802. The Ninth Circuit
applies a “but for” test to determine forum-related
conduct. Fiore, 688 F.3d at 582. Therefore, a plaintiff
must demonstrate that it would not have suffered its
alleged injuries in the forum state but for the
defendant’s actions. Id. Because the Global Risk
Defendants lack any meaningful contact with
California and the Global Risk Defendants’ alleged
“supervision” of the “information operation against
Plaintiffs” took place in New York City and Doha,
Qatar, the Court concludes that Plaintiffs have failed

App. 109
to satisfy the second part of the specific jurisdiction
test.
c. Reasonableness
Jurisdiction

of

Exercising

Even if Plaintiffs had been able to establish a prima
facie case for jurisdiction over the Global Risk
Defendants, the burden would then shift to the Global
Risk Defendants to present a compelling case as to why
exercising jurisdiction would not be reasonable.
Schwarzenegger, 374 F.3d at 802. In determining
whether jurisdiction is reasonable, courts consider
seven factors: (1) the extent of a defendant’s purposeful
interjection into the forum; (2) the burden on the
defendant in defending in the forum; (3) the extent of
conflict with the sovereignty of the defendant’s state;
(4) the forum state’s interest in adjudicating the
dispute; (5) the most efficient judicial resolution of the
dispute; (6) the importance of the forum to the
plaintiff’s interest in convenient and effective relief;
and (7) the existence of an alternative forum. See
CollegeSource, Inc. v. AcademyOne, Inc., 653 F.3d 1066,
1079 (9th Cir. 2011) (internal citation omitted). “No one
factor is dispositive; a court must balance all seven.”
Panavision Int’l, L.P. v. Toeppen, 141 F.3d 1316, 1323
(9th Cir.1998).
In this case, the Court finds that it would be
unreasonable to exercise jurisdiction over the Global
Risk Defendants. The Court concludes that the Global
Risk Defendants could not have reasonably anticipated
that they would be required to defend this action in
California. Indeed, the Global Risk Defendants lack
any contacts with California. In addition, it would be

App. 110
extremely burdensome to require the Global Risk
Defendants to defend this action in California given
that all of their personnel, including those with
knowledge of the facts relevant to this action, and
potential witnesses are located on the East Coast and
in Qatar and would have to travel to California.
Regardless of whether this case is adjudicated in
California or another state, there is minimal concern
about conflicts with states’ sovereignty because many
of Plaintiffs’ claims are based on federal law and this
Court is confident any federal court that is tasked with
adjudicating those claims will be able to fairly and
correctly apply California law to Plaintiffs’ state law
claims. There is also no indication that this matter
could be more efficiently resolved in California.
Although Plaintiff may have an interest in litigating
this action in California because it is more convenient,
the Ninth Circuit has held that “the plaintiff’s
convenience is not of paramount importance” to the
reasonableness inquiry. Dole Food, Inc. v. Watts, 303
F.3d 1104, 1116 (9th Cir. 2002).
After balancing all of the reasonableness factors,
the Court finds that those factors weigh heavily in
favor of the Global Risk Defendants. Therefore, the
Court concludes that it would be unreasonable to
exercise personal jurisdiction over the Global Risk
Defendants.

App. 111
Accordingly, the Court concludes that it does not
have personal jurisdiction over the Global Risk
Defendants.2
B. Jurisdictional Discovery
The decision whether to grant jurisdictional
discovery is typically within the discretion of the
district court. Wells Fargo & Co. v. Wells Fargo Exp.
Co., 556 F.2d 406, 430 n.24 (9th Cir. 1977). “[W]here
pertinent facts bearing on the question of jurisdiction
are in dispute, discovery should be allowed.” Am. West
Airlines, Inc. v. GPA Grp., Ltd., 877 F.2d 793, 801 (9th
Cir. 1989). However, “where a plaintiff’s claim of
personal jurisdiction appears to be both attenuated and
based on bare allegations in the face of specific denials
made by the defendants, the Court need not permit
even limited discovery.” Caddy, 453 F.3d at 1160
(quoting Terracom v. Valley Nat’l Bank, 49 F.3d 555,
562 (9th Cir. 1995)). Although Plaintiffs have
conducted substantial discovery and filed a First

2

Plaintiffs cannot establish personal jurisdiction based on their
conspiracy claim. “California law does not recognize conspiracy as
a basis for acquiring jurisdiction over a foreign defendant.”
EcoDisc Tech. AG v. DVD Format/Logo Licensing Corp., 711 F.
Supp. 2d 1074, 1089 (C.D. Cal. 2010) (citations omitted).
Therefore, “actions taken by co-conspirators in furtherance of the
conspiracy cannot be attributed to a conspirator for purposes of
establishing personal jurisdiction.” Id.; see 12 Cal. Jur. 3d Civil
Conspiracy § 3 (“Conspiracy is not a basis for acquiring personal
jurisdiction over a party.”); see also Stauffacher v. Bennett, 969
F.2d 455, 460 (7th Cir. 1992) (“The cases are unanimous that a
bare allegation of a conspiracy between the defendant and a
person within the personal jurisdiction of the court is not enough”),
superseded on other grounds by Fed. R. Civ. P. 4(k)(2).

App. 112
Amended Complaint, they continue to rely on group
pleading and conclusory allegations, which are
insufficient to establish personal jurisdiction. Although
Plaintiffs request leave to amend and the opportunity
to conduct jurisdictional discovery, they have offered
nothing but mere speculation how that discovery would
assist in pleading facts that would allow the Court to
exercise personal jurisdiction over the Global Risk
Defendants. Accordingly, the Court declines to grant
jurisdictional discovery or leave to amend.
IV.

Conclusion

For all the foregoing reasons, the Global Risk
Defendants’ Motion is GRANTED, and the Global Risk
Defendants are DISMISSED from this action without
leave to amend.3 Plaintiffs’ request to amend their
First Amended Complaint and take jurisdictional
discovery is DENIED.
IT IS SO ORDERED.

3

Because the Court concluded that it does not have personal
jurisdiction over the Global Risk Defendants, it need not address
the Global Risk Defendants’ arguments with respect to derivative
sovereign immunity, diplomatic agent immunity, or Plaintiffs’
failure to state a claim.

App. 113

APPENDIX E
[Filed: September 20, 2018]
Text Entry Order: The Court has reviewed the Joint
Statement Regarding Further Meet and Confer on
Plaintiffs Motion for Leave to Pursue Appeal Pursuant
to September 6 Order of the Court (Joint Statement),
filed September 19, 2018 (Docket No. 216 ). In response
to Plaintiffs request for clarity, the Court has not
entered a final judgment with respect to Qatar or any
other defendant in this action. In light of Plaintiffs
apparent to dismiss the Unserved Defendants,
Plaintiffs shall file the dismissals on or before
September 24, 2018. After the dismissals are filed,
Lead Counsel are ordered to meet and confer and
prepare a joint proposed Judgment. The parties shall
lodge a joint proposed Judgment with the Court on or
before September 26, 2018. In the unlikely event that
counsel are unable to agree upon a joint proposed
Judgment, the parties shall each submit separate
versions of a proposed Judgment, along with a
declaration outlining their objections to the opposing
party’s version, no later than September 26, 2018. All
issues regarding the Designations made pursuant to
the Protective Order shall be submitted to Magistrate
Judge Charles F. Eick. THERE IS NO PDF
DOCUMENT ASSOCIATED WITH THIS ENTRY. (sr)
TEXT ONLY ENTRY (Entered: 09/20/2018)

App. 114

APPENDIX F
JS-6
UNITED STATES DISTRICT COURT
FOR THE CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
Civil Case No.:
2:18-CV-02421-JFW-(Ex)
[Filed September 27, 2018]
[Assigned to Hon. John F. Walter]
BROIDY CAPITAL MANAGEMENT LLC
and ELLIOTT BROIDY,

)
)
)
Plaintiffs,
)
)
v.
)
)
STATE OF QATAR, STONINGTON
)
STRATEGIES LLC, NICOLAS D.
)
MUZIN, GLOBAL RISK
)
ADVISORS LLC, KEVIN CHALKER,
)
DAVID MARK POWELL,
)
MOHAMMED BIN HAMAD BIN
)
KHALIFA AL THANI, AHMED
)
AL-RUMAIHI, and DOES 1-10,
)
)
Defendants.
)
__________________________________________)

App. 115
ORDER OF FINAL JUDGMENT
Amended Complaint Filed: March 26, 2018
On August 8, 2018, the Court issued an order
granting a Motion to Dismiss brought by Defendant
State of Qatar pursuant to Rule 12(b)(1) and Rule
12(b)(2) on the basis that Qatar is immune from suit
under the Foreign Sovereign Immunities Act, and
thereby dismissed Qatar from this action without leave
to amend. Dkt. 198.
On August 16, 2018, the Court issued an order
granting a Motion to Dismiss brought by Defendants
Stonington Strategies and Nicolas D. Muzin
(collectively, the “Stonington Defendants”) for lack of
personal jurisdiction, and thereby dismissed the
Stonington Defendants from this action without leave
to amend. Dkt. 209. Because the Court lacked
jurisdiction over Plaintiffs’ claims against the
Stonington Defendants, the dismissal is properly
considered as a dismissal without prejudice.
On August 22, 2018, the Court issued an order
granting a Motion to Dismiss brought by Defendants
Global Risk Advisors and Kevin Chalker (collectively,
the “GRA Defendants”) for lack of personal jurisdiction,
and thereby dismissed the GRA Defendants from this
action without leave to amend. Dkt. 212. Because the
Court lacked jurisdiction over Plaintiffs’ claims against
the GRA Defendants, the dismissal is properly
considered as a dismissal without prejudice.
On September 20, 2018, the Court issued a minute
order, Dkt. 219, that provided:

App. 116
… In light of Plaintiffs apparent willingness to
dismiss the Unserved Defendants, Plaintiffs
shall file the dismissals on or before September
24, 2018 After the dismissals are filed, Lead
Counsel are ordered to meet and confer and
prepare a joint proposed Judgment. The parties
shall lodge a joint proposed Judgment with the
Court on or before September 26, 2018. In the
unlikely event that counsel are unable to agree
upon a joint proposed Judgment, the parties
shall each submit separate versions of a
proposed Judgment, along with a declaration
outlining their objections to the opposing party’s
version, no later than September 26, 2018. All
issues regarding the Designations made
pursuant to the Protective Order shall be
submitted to Magistrate Judge Charles F. Eick.
Pursuant to that order, on September 24, Plaintiffs
filed a Notice of Voluntary Dismissal, voluntarily
dismissing the remaining defendants in this action:
David Mark Powell, Mohammed Bin Hamad Bin
Khalifa Al Thani, and Ahmed Al-Rumaihi (collectively,
the “Unserved Defendants”). Dkt. 223. The Plaintiffs’
dismissal of the Unserved Defendants was made
without prejudice.
Accordingly, as all defendants have been dismissed
from this action,
IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED:
1. Final Judgment is entered in favor of the State
of Qatar, the Stonington Defendants and the GRA

App. 117
Defendants on Plaintiffs’ First Amended Complaint,
and Plaintiffs shall take nothing thereby.
2. Judgment as to the Stonington Defendants and
the GRA Defendants is without leave to amend and
without prejudice.
3. Plaintiffs’ First Amended
dismissed, as to all causes of action.

Complaint

is

4. All issues regarding the Designations made
pursuant to the Protective Order shall be submitted to
Magistrate Judge Charles F. Eick.
5. This order constitutes a final, appealable
judgment.
DATED: September 27, 2018
/s/
The Honorable John F. Walter
United States District Judge

